<html>
<title> - OVERSIGHT HEARING ON THE CLEAN AIR ACT AND PUBLIC HEALTH</title>
<body><pre>[Senate Hearing 112-949]
[From the U.S. Government Publishing Office]









                                                        S. Hrg. 112-949

                  THE CLEAN AIR ACT AND PUBLIC HEALTH

=======================================================================

                                HEARING

                               BEFORE THE

                              COMMITTEE ON
                      ENVIRONMENT AND PUBLIC WORKS
                          UNITED STATES SENATE

                      ONE HUNDRED TWELFTH CONGRESS

                             FIRST SESSION

                               __________

                             JUNE 15, 2011

                               __________

  Printed for the use of the Committee on Environment and Public Works





[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]








       Available via the World Wide Web: http://www.fdsys.gpo.gov

                               __________

                             

                         U.S. GOVERNMENT PUBLISHING OFFICE 

21-144 PDF                     WASHINGTON : 2017 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Publishing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001                               
                               
                               
                               
                               
                               
                               
                               
                               
                               
                               
                               
                               
                               
                               
                               
                               
                               
                               
                               
                               
                               
                               
                               
                               
                               
                               
                               
                               

               COMMITTEE ON ENVIRONMENT AND PUBLIC WORKS

                      ONE HUNDRED TWELFTH CONGRESS
                             FIRST SESSION

                  BARBARA BOXER, California, Chairman
MAX BAUCUS, Montana                  JAMES M. INHOFE, Oklahoma
THOMAS R. CARPER, Delaware           DAVID VITTER, Louisiana
FRANK R. LAUTENBERG, New Jersey      JOHN BARRASSO, Wyoming
BENJAMIN L. CARDIN, Maryland         JEFF SESSIONS, Alabama
BERNARD SANDERS, Vermont             MIKE CRAPO, Idaho
SHELDON WHITEHOUSE, Rhode Island     LAMAR ALEXANDER, Tennessee
TOM UDALL, New Mexico                MIKE JOHANNS, Nebraska
JEFF MERKLEY, Oregon                 JOHN BOOZMAN, Arkansas
KIRSTEN GILLIBRAND, New York

       Bettina Poirier, Majority Staff Director and Chief Counsel
                 Ruth Van Mark, Minority Staff Director























                            C O N T E N T S

                              ----------                              
                                                                   Page

                             JUNE 15, 2011
                           OPENING STATEMENTS

Boxer, Hon. Barbara, U.S. Senator from the State of California...     1
Inhofe, James M., U.S. Senator from the State of Oklahoma........     2
Whitehouse, Hon. Sheldon, U.S. Senator from the State of Rhode 
  Island.........................................................     6
Alexander, Lamar, U.S. Senator from the State of Tennessee.......     8
Merkley, Hon. Jeff, U.S. Senator from the State of Oregen........     9
Lautenberg, Frank, U.S. Senator from the State of New Jersey.....    10
Barrasso, Hon. John, U.S. Senator from the State of Wyoming......    11
Vitter, Hon. David, U.S. Senator from the State of Louisiana.....    13
Sessions, Hon. Jeff, U.S. Senator from the State of Alabama, 
  prepared statement.............................................   225

                               WITNESSES

Jackson, Hon. Lisa P., Administrator, United States Environmental 
  Protection Agency..............................................    16
    Prepared statement...........................................    19
Responses to additional questions from:
    Senator Boxer................................................    23
    Senator Carper...............................................    27
    Senator Boxer................................................    33
    Senator Carper...............................................    40
Bucic, Sarah, RN, MSN, American Nurses Association and Delaware 
  Nurses Association.............................................    60
    Prepared statement...........................................    63
Responses to additional questions from:
    Senator Boxer................................................    70
    Senator Carper...............................................    72
Paulson, Jerome A., M.D., FAAP, American Academy of Pediatrics...    75
    Prepared statement...........................................    77
Responses to additional questions from:
    Senator Boxer................................................    94
    Senator Carper...............................................    95
Brenner, M. Harvey, Ph.D., Professor, Social and Behavioral 
  Sciences, University of North Texas............................    98
    Prepared statement...........................................   100
Woollums, Cathy S., Senior Vice President and Chief Environmental 
  Counsel, Midamerican Energy Holdings Company...................   191
    Prepared statement...........................................   193
Munzer, Alfred M.D., Pulmonary and Critical Care, Washington 
  Adventist Hospital.............................................   210
    Prepared statement...........................................   212
 
        OVERSIGHT HEARING ON THE CLEAN AIR ACT AND PUBLIC HEALTH

                              ----------                              


                        WEDNESDAY, JUNE 15, 2011

                                       U.S. Senate,
                 Committee on Environment and Public Works,
                                                    Washington, DC.
    The full committee met, pursuant to notice, at 10 a.m. in 
room 406, Dirksen Senate Office Building, Hon. Barbara Boxer 
(chairman of the full committee) presiding.
    Present: Senators Boxer, Inhofe, Carper, Lautenberg, 
Whitehouse, Merkley, Vitter, Barrasso, Alexander.

           OPENING STATEMENT OF HON. BARBARA BOXER, 
           U.S. SENATOR FROM THE STATE OF CALIFORNIA

    Senator Boxer. Good morning, everybody. The Committee will 
come to order.
    I call this hearing to conduct oversight on one of the most 
successful and significant public health statutes in our 
Nation's history, the Clean Air Act. Before President Richard 
Nixon signed the Clean Air Act into law in 1970, the Nation's 
air was heavily polluted in many places in our great Nation. 
For example, a fog of pollution covered Donora, Pennsylvania, 
for 5 days in 1948. Records indicate that 20 people died, 6,000 
people were sickened and hundreds were evacuated as a result of 
the pollution.
    In another tragic case, the eastern United States was 
blanketed by harmful smog in 1966. Scientists and researchers 
eventually concluded the smog caused the death of 24 people per 
day over a period of 6 days.
    The Clean Air Act, which has deep bipartisan roots, changed 
that. President Richard Nixon said, ``I think that 1970 will be 
known as the year of the beginning, in which we really began to 
move on the problems of clean air for the future generations of 
America.''
    When President George Bush signed the Clean Air Act 
amendments in 1990, he said ``I take great pleasure in signing 
the legislation as demonstration to the American people of my 
determination that each and every American shall breathe clean 
air.''
    Now, 40 years after the Clean Air Act was created, many of 
the benefits to public health are clear and measurable. Let me 
show you how successful this landmark environmental law has 
been in protecting children and families in my State of 
California. In 1976, and that's the peak of the line, the red 
line, there were 166 days when health advisories were issued in 
Southern California to urge people with asthma and other people 
with lung sensitivities to stay indoors.
    In 35 years, the number of smog-related health advisories 
issued in southern California dropped from 166 days in 1976 to 
zero days in 2010. And I think that chart, if a picture is 
1,000 words, this chart says it about the Clean Air Act. Thank 
you.
    While the Clean Air Act has dramatically improved health 
safeguards, more work remains to be done. A 2011 report by the 
American Lung Association shows that 154 million people live in 
areas with levels of toxic soot and smog pollution that current 
science demonstrates is dangerous. Last year the Pittsburgh 
Post Gazette reported on the oily black rain of pollution from 
an electric utility company that coated a local community in 
2006. Because of the potential impact of the pollution on 
public health, local farmers were told that livestock should 
not graze in their fields and families were told not to eat 
fruits and vegetables from their own gardens.
    In 2008, USA Today ran a series on toxic air pollution near 
our Nation's schools. I remember, it was the first time I 
really met formally with Lisa Jackson here, as she was coming 
up for her confirmation hearing. I asked EPA to help monitor 
for such threats, and she said she pledged she would do so. And 
now the agency is focused on addressing sources of toxic air 
pollution near schools. We all know that children are much more 
sensitive to these dangerous pollutants than adults, given 
their size.
    The EPA is also helping my constituents in Mecca, 
California. Yes, there is a Mecca, California. There is a 
horrible odor emanating from a soil recycling plant. It made 
people very sick. And Senator Inhofe, as you know, sometimes we 
see these issues in the local press, well, I saw it in the 
local press and I looked at it. Everyone was just shrugging 
their shoulders, what was it? What was causing it? These kids 
were dizzy, they were practically fainting. Teachers were being 
hospitalized. It was just a nightmare.
    And the kids were told they couldn't go out and play. And 
you tell a little child they can't go out and play, it is a 
prison sentence.
    So we got EPA activated, they got involved with the State, 
with the local people. And now they have identified the source 
of the pollution. The point I am making is, we need to enforce 
this law. Under the Clean Air Act, EPA is required to 
strengthen protections if the science indicates that pollution 
adversely impacts public health, again, including children's 
health. And recently, EPA proposed much-needed Federal 
safeguards to reduce toxic air pollution from old power plants, 
by requiring the use of modern pollution controls. These 
proposed safeguards would reduce mercury, lead, chromium, which 
are known to cause cancer and birth defects.
    The point is, this is the Clean Air Act at work. And 
Administrator Jackson has to do her job. Unless we repeal the 
Clean Air Act or portions thereto, which there are some 
attempts to do, which have failed, Lisa Jackson has to do her 
job, or there will be lawsuits and she will have to defend why 
she is doing nothing. So I hope colleagues will understand that 
this is her responsibility.
    When EPA reduces toxic air pollution, it helps families and 
children. EPA recently conducted a congressionally required 
peer-reviewed analysis of the Clean Air Act showing 
overwhelming health benefits now and into the future. The 
annual benefits by 2020, and I will show you this, it is a 
little small printing, but I think colleagues can read it, will 
include preventing more than 230,000 premature deaths, 200,000 
cases of heart attacks, 2.4 million cases of asthma attacks, 
120,000 emergency room visits and 5.4 million lost days at 
school.
    So in contrast to the unsupported claims by some polluters 
who argue health threats from mercury are exaggerated and other 
air pollutants are exaggerated, we will hear today from 
Administrator Jackson and representatives of the American 
Academy of Pediatrics, the nurses, the Thoracic Society, who 
are experts on this issue . And these witnesses will describe 
the critical steps that have been taken to reduce dangerous air 
pollution.
    Again, before I turn to the Ranking Member, to whom I will 
give an extra 2 minutes, I want to thank you personally for 
your involvement in this Mecca situation. Because I went there, 
and we had a meeting. Everyone was around the table. It was so 
uplifting for the community. It is a poor community. And they 
really feel that their voices have been heard. I know we won't 
stop until we get this all resolved. I wanted to thank you.
    Now I will turn to my colleague, and I will give you 7 
minutes.

          OPENING STATEMENT OF HON. JAMES M. INHOFE, 
            U.S. SENATOR FROM THE STATE OF OKLAHOMA

    Senator Inhofe. Thank you, Madam Chair. I think a lot of 
people don't realize that what you said about the merits and 
successes of the Clean Air Act, I have said many times, and I 
agree. In fact, one of the things I was going to talk about 
today, both the EIA and the EPA data indicates that since 1970, 
coal use has increased by over 200 percent while SOX and NOX 
emissions have dropped by 65 and 85 percent, respectively. It 
is a success story.
    This is the first time that we have had Administrator 
Jackson here to discuss the Environmental Protection Agency's 
air quality regulations, so I am very glad you are here and 
look forward to this hearing.
    I would also like to thank the witnesses on our second 
panel, Cathy Woollums. It will be nice to hear how the 
regulations are affecting the ratepayers. And Dr. Brenner, I 
think reference was made to you last week by Margo Thorning. 
You have a real interesting testimony. So we can be learning 
more about how energy price increases and unemployment affect 
public health. There is a relationship there that nobody every 
talks about. So I look forward to that.
    There is always the propensity of people who want to over-
regulate our lives to try to use such things as health and 
deaths and all that. But we don't hear the other side of it. So 
we will hear some of it today.
    Over the past 2 years, the Obama EPA has moved forward in 
an unprecedented number of rules that will have enormous 
consequences on families and businesses and the Nation's fiscal 
well-being. Take for example the EPA's new greenhouse gas cap 
and trade regulations. I appreciated your honesty, 
Administrator Jackson, gosh, it has been months ago, I guess, 
when I was saying, if we were to do something like that, either 
through regulations or through any of the legislation, like the 
Markey Bill and some of the rest of them, would that decrease 
concentrations. And of course, you had stated it would not have 
an impact on greenhouse gas concentrations, obviously, since we 
are looking at where the problem is is not the United States, 
but it is countries like China and like India and elsewhere.
    I would take it one step further, and I have several times, 
these were not your words, but they were mine, that it could 
have just the opposite effect. Because as we lose our jobs, as 
hey are out seeking power and energy, they have to go to places 
where the regulations are not nearly as stringent as ours, it 
could have an increased effect.
    The agency's voluntary reconsideration of the National 
Ambient Air Quality Standards for ground level ozone, a 
decision based on outdated data, could lead to significant 
economic constrains in the Country. It is another agency action 
of dubious merit. EPA projects costs of this rule to be 
somewhere around $90 billion. Meanwhile, the agency is planning 
to tighten the standards again in just 2 years.
    The Obama EPA is aggressively moving forward to regulate 
nearly all aspects of American life. It is now regulating, has 
regulations to cover dust on farms, in puddles of water along 
the side of the road, and it is businesses and working families 
who have to pay for all this.
    Today we have a witness from the electric power industry 
with us. So let's focus on the regulations affecting her 
business for a minute. Just last week, in response to EPA's 
rules, American Electric Power announced that they would be 
forced to close nearly 6,000 megawatts of low cost coal-powered 
energy. Now, when you do the math on that, that works out to 
about 12 plants.
    As a consequence, the AEP, that is American Electric Power, 
estimates nearly 600 power plant workers will lose their jobs, 
totaling nearly $40 million in annual wages. These are good-
paying jobs in rural areas in Virginia, West Virginia, Ohio, 
Indiana, and Texas. They won't be easily replaced.
    Of course, the effects to the communities will be far 
greater than these direct job losses alone, as electricity 
prices increase in nearby businesses suffer in the wake of 
plant closures. A recent report by the National Economic 
Research Association anticipates this will be replicated across 
the Country, with an estimated 48 gigawatts in plant closures. 
This is just from two of the EPA rules. That is the AEP tragedy 
eight times over.
    Before this analysis is criticized, let me say that it is 
consistent with multiple projections, including that of the 
Obama Department of Energy, which estimates that plant closures 
could be as high as 70 gigawatts. NERA, that is the National 
Economic Recovery Associates, goes on to predict that these two 
rules, Utility MACT and the Transport Rule, will cause 
electricity prices to increase by as much as 23 percent. And by 
2020, 1.4 million jobs could be lost. Now, that comes from the 
Obama administration, not from some other association.
    As I said in last week's hearing, we all have an interest 
in dealing with real pollution concerns and protecting public 
health. We also know that President Obama has a cap and trade 
agenda that is specifically designed to raise the prices of 
energy by forcing coal and oil out of the market. That is coal, 
oil and gas. He couldn't get it passed through the Senate, so 
now he is trying to do it with the EPA doing it for him.
    It is kind of interesting that everyone up here on this 
panel is always talking about great all this stuff is, and 
global warming is coming, we have to do cap and trade. And yet 
there probably are not, at the very most, 30 votes in the U.S. 
Senate that would support that when it comes down to a vote. So 
it makes for good conversation, but the votes aren't there. It 
is something that no more than one-third of this Senate would 
vote for.
    Today, the Clean Air Act is being implemented in a way that 
bears no resemblance to what Congress intended. I have already 
said that I was a great supporter of the successes of the Clean 
Air Act in the past. Congress didn't give the EPA the authority 
to set mandates that can't be achieved. Congress didn't give 
the EPA authority to pursue an agenda that hurts the very 
people that it is supposed to be trying to protect. And we all 
know that Congress didn't give the EPA authority to regulate 
greenhouse gases. But here we are.
    So we hear a lot about the Clean Air Act these days, and I 
will be the first to admit that industry and States have done a 
great job of cleaning up air over the past 40 years. But the 
Clean Air Act is in dire need of modernization. It needs to be 
updated to undo years of bureaucratic over-reach and messy 
court rulings, updated to meet the pollution challenges of 
today, and yes, updated to stop politicians from using it to 
pursue a reckless political agenda.
    I have to say to our first witness, Lisa Jackson, it is 
nice to have you back. I always really sincerely appreciate the 
fact that you do give direct answers, even when it is not 
popular to give them. So I thank you very much for being here.
    And also, I heard from one of the green publications 
yesterday, I was doing an interview. They had gone to your 
office and said you still have a beautiful picture hanging on 
your wall. I was glad to hear that.
    [The prepared statement of Senator Inhofe follows:]

            Statement of Hon. James M. Inhofe, U.S. Senator 
                       from the State of Oklahoma

    Madam Chairwoman, I appreciate your having today's hearing. 
This is the first time this session we've had Administrator 
Jackson here to discuss the Environmental Protection Agency's 
(EPA) air quality regulations. I'm glad you're here. I'd also 
like to thank the witnesses on our second panel. Cathy 
Woollums, I'm anxious to hear how EPA's regulations are 
affecting your rate payers. Dr. Brenner, I look forward to 
learning more about how energy price increases and unemployment 
affect public health. I think your testimony will be 
particularly insightful in light of the sweeping job losses we 
expect from EPA's rules.
    Over the past 2 years, the Obama EPA has moved forward with 
an unprecedented number of rules that will have enormous 
consequences for families, businesses, and the nation's fiscal 
well-being. Take for example, EPA's new greenhouse gas (GHG) 
cap and trade regulations. Administrator Jackson, you have 
admitted that regulating GHGs in the U.S. will have no impact 
on global GHG concentrations, yet your rules will come at an 
estimated cost of $300 to $400 billion annually. The Agency's 
voluntary reconsideration of the national ambient air quality 
standards for ground-level ozone--a decision based on outdated 
data that could lead to significant economic constraints on the 
country--is an another Agency action of dubious merit. EPA 
projects the cost of this rule in the order of $90 billion. 
Meanwhile, the Agency is planning to tighten the standards 
again in just 2 years.
    The Obama EPA is aggressively moving forward to regulate 
nearly all aspects of American life--it now has regulations 
covering dust on farms and puddles of water along the side of 
road. And it is businesses and working families who will pay 
the price.
    Today we have a witness from the electric power industry 
with us, so let's focus on the regulations affecting her 
business for a minute. Just last week, in response to EPA's 
rules, American Electric Power (AEP) announced they would be 
forced to close nearly 6,000 Megawatts of low cost (coal) power 
generation. As a consequence, AEP estimates nearly 600 power 
plant workers will lose their jobs, totaling nearly $40 million 
in annual wages. These are good paying jobs in rural areas of 
Virginia, West Virginia, Kentucky, Ohio, Indiana and Texas. 
These jobs won't easily be replaced.
    Of course, the effects to the communities will be far 
greater than these direct job losses alone, as electricity 
prices increase and nearby businesses suffer in the wake of 
plant closures. A recent report by National Economic Research 
Associates (NERA) anticipates this will be replicated across 
the country, with an estimated 48 Gigawatts in plant closures. 
And this is from just two of EPA's rules. That's the AEP 
tragedy eight times over. And before this analysis is 
criticized, let me say that it is consistent with multiple 
projections, including that of Obama's Department of Energy, 
which estimates that plant closures could be as high as 70 
Gigawatts. NERA goes on to predict that these two rules--the 
``Utility MACT'' and the ``Transport Rule''--will cause 
electricity prices to increase by as much as 23 percent. By 
2020, 1.4 million jobs could be lost.
    As I said at last week's hearing, we all have an interest 
in dealing with real pollution concerns and protecting public 
health. But we also know that President Obama has a cap and 
trade agenda that's specifically designed to raise energy 
prices by forcing coal and oil out of the market. He couldn't 
get it passed the Senate, so now he has the EPA doing it for 
him. This is something that no more than one-third of the U.S. 
Senate would vote for.
    Today, the Clean Air Act is being implemented in a way that 
bears no resemblance to what Congress intended. Congress didn't 
give EPA the authority to set mandates that can't be achieved. 
Congress didn't give EPA the authority to pursue an agenda that 
hurts the very people it's supposedly trying to protect. And we 
all know that Congress didn't give EPA the authority to 
regulate greenhouse gasses. But here we are.
    We hear a lot about the Clean Air Act these days. And I'll 
be the first to admit that industry and states have done a 
great job of cleaning up the air over the past 40 years. But 
the Clean Air Act is in dire need of modernization. It needs to 
be updated to undo years of bureaucratic overreach and messy 
court rulings; updated to meet the pollution challenges of 
today. And yes, updated to stop politicians from using it to 
pursue a reckless political agenda that hurts working families.

    Senator Boxer. Thank you so much to my Ranking Member.
    I would say in the order of arrival, on our side, 
Whitehouse, Merkley, Lautenberg, and Alexander on the 
Republican side.

         OPENING STATEMENT OF HON. SHELDON WHITEHOUSE, 
          U.S. SENATOR FROM THE STATE OF RHODE ISLAND

    Senator Whitehouse. Thank you, Madam Chair. I would 
respectfully differ with our Ranking Member that we don't hear 
much from the polluting side. I think we hear relentlessly in 
this building from the polluting side. I think that is one of 
the reasons that we don't have the votes yet on trying to do 
something responsible about carbon pollution.
    But I would note that although there is a focus, because 
the polluting side pays the benefits of cleaner air, pays the 
costs of getting the cleaner air, the value is more widespread, 
but it is very real. According to the Office of Management and 
Budget, the total economic benefits of the Clean Air Act are 
estimated to exceed compliance costs anywhere from four to one 
to eight to one.
    And the health benefits of the Clean Air Act are even 
larger. The direct health benefits of just the 1990 Clean Air 
Act amendments, which included the acid rain program and the 
program to phaseout chemicals that deplete the ozone layer, 
exceeded the cost of industry compliance by 30 to 1. The 
upcoming Clean Air Act rules have similar benefit to cost 
ratios.
    EPA will soon finalize the Transport Rule, very important 
to Rhode Island, because we get bombarded with pollution from 
States that we have no control over, creating one of the 
highest rates of asthma around. Eleven percent of children in 
Rhode Island have asthma. And the Transport Rule will help 
reduce that. In doing so, it will serve our economy by avoiding 
the significant health costs.
    The Transport Rule has a predicted benefit to cost ratio of 
anywhere from 55 to 1 to 145 to 1. What we hear from more than 
any place else is the one.
    EPA is also finally taking steps to control toxic air 
pollution from power plants. The agency is moving in response 
to longstanding peer-reviewed, scientific evidence that 
establishes the health threats of mercury, dioxin, acid gases 
and other toxic air pollution. The new Toxic Air Standards have 
a predicted benefit to cost ratio of anywhere from five to one 
to 13 to one. Again, we hear a lot from the one.
    The arguments against, I think, are very often not 
particularly well-founded. There was a Wall Street Journal op-
ed recently entitled The Myth of Killer Mercury. It was written 
by a consultant of the George C. Marshall Fund, whose role in 
fixing the science against the public health is chronicled 
pretty effectively in a book called Merchants of Doubt. I won't 
go into it any further, but I think General Marshall is 
probably horrified that his name has been associated with this 
fund.
    The other author is a senior fellow at an Exxon-funded 
think tank and a former principal of an energy public relations 
firm. Up against that, you have the fact that every single one 
of our 50 States has put out mercury advisories, warning 
pregnant women and children not to eat certain kinds of fish 
for fear of causing permanent neurological damage. Every one of 
our 50 States has that out.
    With respect to the AEP shut-downs, I take a bit of an 
interest in that, because years ago as attorney general of 
Rhode Island, I participated in a lawsuit that has provoked a 
lot of these shut-downs for the very health reasons that I have 
just described. Rhode Island was getting bombarded. Just the 
other day, when we were here a week ago, it was a bad air day 
in Rhode Island. Nothing we could do about it. Pollution from 
Midwestern power plants turns into ozone, and we get notices in 
drive time radio in Rhode Island saying, if you have infants, 
elderly, people with respiratory conditions should stay inside 
today, because the air is not safe to breathe. That is a cost 
when you have to stay inside because the air is not safe to 
breathe because of a downwind power plant.
    Forty-five hundred out of the 5,500 megawatts that are 
being taken offline are being taken offline because of that 
lawsuit. Not because of what it threatened, but because of what 
they did and the fact that it was wrong and the fact that they 
settled that case. And in that case, just by the way, on this 
question of cost benefit, the cleanup costs for AEP and for the 
defendants involved were $4.6 billion, and the savings in 
health and other benefits on the other side were estimated to 
be $30 billion, not once, but annually thereafter. Four point 
six billion dollar investment to save $30 billion in health and 
other costs annually thereafter. I think that is pretty good 
business for the United States of America to be involved in.
    And I thank the Chairman for the hearing and the 
Administrator for her hard work.
    Senator Boxer. Thank you so much, Senator Whitehouse.
    Senator Alexander.

          OPENING STATEMENT OF HON. LAMAR ALEXANDER, 
            U.S. SENATOR FROM THE STATE OF TENNESSEE

    Senator Alexander. Thank you, Madam Chairman. Administrator 
Jackson, welcome. Good to see you.
    When the Nissan plant was thinking about locating in the 
United States 30 years ago, it thought of Tennessee. And the 
first thing the officials did was to go down to the State air 
quality board and get an air quality permit for their paint 
plant. Because the air was clean enough for them to get it, 
Nissan located there. And today, a State that had almost no 
auto jobs has about a third of its manufacturing jobs in the 
auto business. In other words, clean air for us means good 
jobs.
    Across the State of Tennessee, we have a lot of county 
officials who are struggling to meet the National Ambient Air 
Standards. They would like to get the next Volkswagen supplier. 
They want to be able to get their air quality permits. And they 
won't be able to get it unless we have a strong national Clean 
Air law, which is why I have joined with Senator Carper for the 
last 6 years in introducing a law that regulated sulfur, 
nitrogen and mercury, and saying while we argue about carbon, 
let's go ahead and do the other three and do it right.
    I am also interested in the health effects, which have been 
talked about. And I am also interested, because we like to see 
the Great Smoky Mountains, and visitors don't come there to see 
the smog, they come to see the blue haze that the Cherokees 
sang about. And it is the most polluted national park in 
America, because dirty air blows in from all over the Country, 
not just from TVA.
    That is why I support the Tennessee Valley Authority's 
recent decision on coal, to either close its coal plants or put 
pollution control equipment on all of its plants by 2020. That 
is the right thing to do. It will make it easier for us to 
attract auto jobs. It will help our health and it will attract 
tourism jobs and give us a chance to see the mountains.
    It also means we will be able to use coal. Thirty-five 
percent of our electricity will be made by coal, more or less, 
by the year 2020. And if we can figure out a way to deal with 
carbon from coal plants, more of it will be from coal.
    So there are some things I like about the EPA's rules, and 
there are some things I don't like. The Clean Air Transport 
Rule is very much like the law that I wish we had passed in the 
last Congress on SOX and on NOX. It doesn't have enough 
flexibility, as much as we did. I think you still have 
authority to grant more flexibility in dealing with sulfur and 
nitrogen. And I hope you consider that. I will be asking about 
that during my question time.
    As far as mercury and the other pollutants, I believe coal 
plants should get rid of mercury up to 90 percent. The 
technology is there to do it. Mercury is dangerous. It comes 
down near the coal plants, shouldn't be traded, I agree with 
all of that. But I want to make sure that when we lump all the 
other pollutants with mercury, I think it suddenly runs the 
cost up and takes it into an unrealistic range. So my question 
would be, wouldn't it be better if we gave you the authority 
only to deal with mercury, which is what Senator Carper's bill 
and I did.
    Finally, on the Boiler MACT provision, I think that rule 
belongs on another planet somewhere. It is completely 
unrealistic. It is not based on real world achievability. It 
may be the most expensive such rule ever proposed. And I don't 
believe it can be fixed by the Environmental Protection Agency 
without some congressional action. The EPA admitted, when it 
petitioned the court 15 months ago, that it was having a hard 
time with it. You have been forced to come up with a rule 
faster than you should. So today, I am going to be asking two 
questions of the Administrator. And if I have time to do it in 
my question time, I will do it then. And if not, I would 
appreciate very much a written response to the questions.
    One would be, do you have the legal authority to make the 
necessary changes to the solid waste portion of the rules 
affecting industrial boilers? That is my first question. My 
second question would be, do you have the time to fix the rule 
considering the fact that courts have already forced you to 
move faster than EPA originally wanted and your administrative 
stay is already being challenged by a new lawsuit?
    And when the time comes, I will ask a third question about 
your mercury rule. Wouldn't it be better if we gave you the 
authority only to deal with mercury, as Senator Carper and I 
proposed in our bill, rather than lump mercury in with other 
pollutants, which will cause utilities to have to spend too 
much money to deal with those pollutants. Having low-cost 
electricity is an important part of making it easier and 
cheaper to create good new jobs in this Country.
    I believe we can do that with rules on sulfur and nitrogen 
and mercury over a reasonable period of time. But the Boiler 
MACT and the other pollutants send the cost into the 
stratosphere.
    Thank you very much, Madam Chairman.
    Senator Boxer. Thank you, Senator. And hopefully you can 
stay for questions. But I will make sure, and I know that 
Administrator Jackson will make sure to answer you in writing, 
if you can't stay in time to get all those questions.
    Senator Alexander. Thank you very much.
    Senator Boxer. Senator Merkley.

            OPENING STATEMENT OF HON. JEFF MERKLEY, 
             U.S. SENATOR FROM THE STATE OF OREGON

    Senator Merkley. Thank you, Madam Chairman. Welcome, 
Administrator Jackson.
    I had a recent experience that reminded me of how important 
clean air is, in that the Senate had a bipartisan delegation to 
China. And everywhere we went, we were told it was the best air 
day they had had in the year, or possibly the previous 2 years. 
And we couldn't see buildings 100 yards away. We were told by 
the embassy personnel that they were thinking that they should 
keep family members no more than 2 years in China because of 
the moral implications of exposure to family members in regard 
to health. We heard about the China cough syndrome, and heard 
it as well, and so on and so forth.
    It took me back to when, in my earlier days in Oregon, we 
used to have bad air quality days much more routinely. Nothing 
like L.A., we were happy to acknowledge, but certainly still 
were affected. And so when I look at how the Nation's health, 
and really its whole quality of life has been impacted by the 
Clean Air Act, it is a tremendous success. The statistics on 
2010 alone, preventing 160,000 cases of premature mortality, 
reducing heart attacks by more than 100,000, reducing lost work 
days by 13 million, reducing asthma attacks by nearly 2 million 
in a single year, and those projections continue.
    So I know it is often popular to attack the Clean Air Act 
on the basis that it will cripple our economy, cripple our 
industry or bring down our businesses. But the fact is that 
that has never been the case. It has always been the argument 
and it has never been the case. And indeed, there are costs of 
compliance, but those costs are outweighed by about a 30 to 1 
factor in terms of reduction in health care expenses. And 
behind those health care expenses is not just an issue of the 
wallet, it is an issue of our daily quality of life.
    So I look forward to your testimony as we work to sustain 
and improve our air quality in America.
    Senator Boxer. Thank you, Senator.
    Senator Lautenberg.

          OPENING STATEMENT OF HON. FRANK LAUTENBERG, 
           U.S. SENATOR FROM THE STATE OF NEW JERSEY

    Senator Lautenberg. Thanks, Madam Chairman. Welcome, 
Administrator Jackson.
    I always feel that the air is made lighter when I see you 
and know what you are doing for us. I congratulate you and urge 
you, don't quit. That is what you have to do. Continue to 
enforce the rules. Continue to care about what the net gain is 
for America. Because costs are discussed here as if that is the 
ultimate goal.
    But we know darned well, that is not the goal. That is not 
the goal of those of us who think that we ought to be investing 
and protecting the health and well-being of our kids at stages 
of life when clean air is so important, living in a country 
where Code Orange days say, children, the elderly, stay 
indoors. Stay indoors? Is that what we want to tell our 
children? I don't think so.
    I don't want to surprise people here, but I am a senior 
citizen. And I am told, get out here, no matter what the 
weather is. But that is a political thing.
    [Laughter.]
    Senator Lautenberg. Anyway, this year we have also 
experienced Code Red, where even healthy adults are advised to 
limit their outdoor activity. The alarm is ringing and those on 
the other side just don't see the urgency. They are good people 
and I know they care about their children and their families. 
But their priority would result in protecting the polluting 
companies that are causing the problems. Not long ago that kind 
of thinking was the exception, not the rule.
    In 1990, both parties came together to strengthen the Clean 
Air Act, protect our Country from dangerous air toxics. But the 
big polluters put their lawyers and lobbyists to work, spent 
millions of dollars to prevent EPA from implementing the law, 
setting rules that cleaned up the largest sources of deadly 
emissions. The Obama administration is trying to fix this, by 
putting limits on the largest sources of air toxics. But the 
other side attacks these new rules as too costly. How costly is 
it when life is at risk? We have to be clear. These rules now 
are more than a decade overdue. While industry and their allies 
in Congress keep stalling, Americans are paying a price that in 
many ways is irrecoverable.
    We know that dirty air causes asthma attacks, heart 
attacks, strokes, cancer. And on a personal side, my oldest 
grandchild, who is only 17, has asthma. And my daughter, when 
he goes out to play sports, first checks to see where the 
nearest emergency clinic is, so that if he starts to wheeze, 
she gets him there in a hurry.
    So when we look at things as dreadful and deadly as 
mercury, essentially brain poison for children, can damage a 
child's kidneys, liver, nervous system and permanently a lower 
a child's i.q., what is the cost? What is the cost there? In 
emotional and human terms, the cost is inconceivable that it 
would continue to be, that people would continue to be exposed 
there, as opposed to reducing health care costs and seeing 
children happy and able to go outside and do what kids normally 
do.
    So Madam Chairman, I ask unanimous that my full statement 
be included in the record. And I commend you for your pursuit 
of better health for our families, our children, and we all 
have to keep that in mind. I want to say this to my colleagues 
on the other side. I know that you are concerned about the 
health and well-being of children. But I would ask, if you 
could only at least consider that the primary cost of what we 
are trying to do is not the dollars involved, but rather the 
results that we can get if we implement the rule as they are.
    Thank you very much, Madam Chair.
    Senator Boxer. Thank you so much.
    Senator Barrasso.

           OPENING STATEMENT OF HON. JOHN BARRASSO, 
             U.S. SENATOR FROM THE STATE OF WYOMING

    Senator Barrasso. Thank you very much, Madam Chair.
    For 2 years, Madam Chairman, this Administration has had an 
economic policy that has not rescued our economy and has not 
created jobs. In fact, this Administration's policies have done 
just the opposite. They have made it worse.
    I believe in fostering economic growth through innovation, 
low taxes and less regulation. This will spur the private 
sector to create the jobs al across this great Country. This 
Administration has been picking winners and losers. It is 
attempting to create a green economy where you regulate one 
sector of the economy out of business and subsidize the other 
sectors to clean up the mess with taxpayer money.
    For the last 2 years, this Administration and this EPA have 
pursued their green wins while red, white and blue energy 
loses. That is the economic policy that they have been 
pursuing, and the result is 9.1 percent unemployment.
    Lisa Jackson, who is before us today, was quoted as saying 
recently that ``We want to make environmental protection and 
environmental technology a central piece of our effort to win 
the future.'' Along with some very difficult spending cuts, she 
says the President is calling for investments in our schools 
and our teachers, our innovators and small businesses, and the 
infrastructure that keeps our economy running. She calls this 
essential ingredients to a robust green economy.
    Where can we look, Madam Chairman, to see where these green 
economy policies have been in effect? Well, in September 2009, 
at the Second Annual Governors Global Climate Summit, Jackson 
stated ``California has been out front on energy efficiency, 
greenhouse gas reduction, transportation innovation and so much 
more.'' She goes on to say ``In many ways the Country is once 
again catching up with what is happening here.'' She is 
referring to California.
    Two years since that statement, 2 years since that 
statement was made, the unemployment rate in California is 11.9 
percent, well above the national average. If that is how an 
only green economy works, the 9.1 percent of the Country 
looking for jobs aren't interested. Even green American 
businesses that are receiving Government support are finding it 
hard to compete. As President Obama touted the success of LED 
light bulb manufacturers in North Carolina, he failed to 
mention that one of the companies he toured was having 
significant financial difficulty, and their stock value was cut 
in half over the last year. This was despite the company 
receiving a $39 million tax credit through the Obama so-called 
stimulus law.
    Explaining this phenomenon was Jeffrey Bencik, a green 
technology analyst for the New York investment banking firm, 
who stated that U.S. makers of LED products, energy-efficient 
light emitting diodes, will have a hard time competing unless 
anyone can get their costs down to compete with the Chinese 
companies. Wishful thinking and the political ideology of this 
Administration and this EPA simply fail to account for the 
economic realities of the global marketplace.
    This Administration's steadfast vocal support of green 
energy initiatives and a green economy doesn't make American 
companies more innovative at home or more competitive abroad. 
At some point, I would like to see this Administration's policy 
dreams of tomorrow actually acknowledge the economic reality of 
today. The economic reality is millions of Americans still 
unemployed, looking for work to provide for their families. 
Many families with children are sliding into poverty as the 
bills pile up.
    This Administration can't continue to pick the winners and 
losers in America's energy debate. We need it all, green, red, 
white and blue energy jobs I believe our job is to make sure 
that things don't get any worse and create an economic 
environment where things can actually get better.
    During the testimony of Dr. Margaret Thorning during last 
week's Clean Energy Subcommittee hearing, she quoted Professor 
Brenner of Johns Hopkins University, who is scheduled to 
testify today, whose research showed that economic growth leads 
to actually the lowering of mortality rates, including child 
mortality. In addition, according to the National Center for 
Health Statistics, American children in poverty are 3.6 times 
more likely than non-poor children to have poor health and five 
times more likely to die from an infectious disease.
    That is the concern I have regarding the economy, Madam 
Chairman. It is our responsibility to make America's air as 
clean as we can as fast as we can. And let us do it in a way 
that doesn't hurt American families during this economic 
crisis. Costly job-crushing regulations, heavy tax burdens, and 
investment in non-competitive industries does not foster 
economic growth, does not create jobs, does not promote 
commerce and does not make the public healthier.
    Thank you, Madam Chairman, and I look forward to the 
testimony.
    Senator Boxer. I am sure you do.
    Senator Vitter.

            OPENING STATEMENT OF HON. DAVID VITTER, 
            U.S. SENATOR FROM THE STATE OF LOUISIANA

    Senator Vitter. Thank you, Madam Chairman, for this 
hearing. I will submit my full statement for the record, but I 
did want to make a few comments.
    Certainly this hearing is timely, in my opinion, 
particularly since over the last 6 months or so EPA, I believe, 
has lost enormous credibility in terms of the core fundamental 
issue of the soundness of its science and its scientific 
reviews. We have seen this in a number of instances, I have 
been particularly involved in one where I was pushing for an 
independent review and study by the National Academy of 
Sciences. We finally got that, and quite frankly, it confirmed 
my concerns about the validity and soundness of the science 
work going on for EPA.
    I think that is a very important backdrop to all of these 
discussions. And I agree with the call for everything to be 
based on sound science. I think we have a lot of work to do to 
ensure that that is happening under this Administration.
    So I will submit the rest of my comments for the record. 
But that is the fundamental backdrop and concern I have. Thank 
you.
    [The prepared statement of Senator Vitter follows:]

             Statement of Hon. David Vitter, U.S. Senator 
                      from the State of Louisiana

    Thank you Chairman Boxer and Ranking Member Inhofe for 
holding this hearing today on EPA regulation under the Clean 
Air Act and public health.
    If anything this hearing is timely. Over the last sixth 
months or so EPA has lost credibility as an agency capable of 
handling scientific reviews in an unbiased manner. EPA has lost 
credibility as an agency capable of doing comprehensive 
economic analysis on the impacts of the suite of new 
regulations it wants to impose on American businesses. EPA has 
also lost credibility with the courts as an agency capable of 
operating within its statutory authority. All of which has led 
to the EPA being apply nicknamed the ``Employment Prevention 
Agency.''
    For the several years leading to 2011 this committee was 
holding regular hearings on why we needed Cap and Trade to 
create jobs and spur economic growth. As those arguments 
collapsed under further scrutiny we were told Cap and Trade was 
needed to protect public health. Fortunately, republicans saw 
through the disingenuous arguments and were able to thwart that 
legislative effort. Had we not prevented Cap and Trade from 
becoming law it clearly would have exacerbated the 9 percent 
unemployment rate we see today as well as the soaring energy 
prices American consumers and businesses are suffering through 
this summer.
    Unfortunately, the Obama administration and the EPA see a 
litany of new regulations as a consolation prize to Cap and 
Trade, and are aggressively hoping to implement what is both 
scientifically dubious and economically unsound.
    The National Academies reported about a month ago on the 
scientific review process being done at EPA at both 
Administrator Jackson's and my request. Administrator Jackson 
and I negotiated aggressively to have that work done by the 
NAS. Their findings in April confirmed what many intuitively 
knew. The report confirmed that EPA has very serious and 
chronic flaws in scientific work being conducted, and in 
particular the methodologies and lack of weighting scientific 
evidence, which in turn leads to routinely biased conclusions.
    Additionally, EPA seems bent on ignoring the economic 
realities of today and routinely fails to produce even semi-
respectable economic analysis on the impacts of the Agency's 
decisions. As well, EPA routinely ignores requirements under 
section 321(a) of the Clean Air Act. We see this in particular 
in EPA's ongoing saga in regulating commercial, institutional 
and industrial boilers. In fact, EPA's economic analysis was so 
bad that the Department of Commerce had to get involved with 
their own analysis, which reportedly showed far worse an impact 
than EPA had concluded. EPA officials have since been forced to 
acknowledge their failure to ``calculate standards that fully 
reflected operational reality.''
    Confounding these problems EPA has aggressively taken steps 
to exceed its statutory authority. Just last month Judge 
Richard Leon of the Federal district court for the District of 
Columbia found that EPA's use of the Environmental Appeals 
Board to extend review periods for permits under the Clean Air 
Act was in contradiction to clear statutory authority. Quite 
similar to the Interior Department, EPA has a permitting 
problem. And unfortunately for the American worker and 
businesses, the permits these agencies are mismanaging are the 
permits companies need to create jobs. In the words of Judge 
Leon ``how absurd.''
    In opposition to a free market economy crony capitalism has 
been given new life in the Obama administration. It's become 
this simple: If you are not a favored industry you are going to 
have trouble getting your permits. If you are a favored 
industry and endorse the Administration's agenda you will not 
only be more likely to get your permits, but you may even get 
Federal financing and there is a good chance you will be 
appointed as an economic advisor to the President. Jeff Immelt 
and John Bryson can attest to this fact.
    Finally, there exist two very serious public health 
problems ongoing in the U.S. today. They are unemployment and 
poverty, both of which are being exacerbated by a dysfunctional 
Environmental Protection Agency. Unfortunately, the 
prescription this administration is prescribing is a 
combination of crony capitalism, agency overreach, biased 
science, poor economic analysis and selective permitting. That 
is not an elixir that will cure what ails our economy. And the 
unemployment perpetuated by this strategy will continue to be 
the single greatest public health issue facing the United 
States.

    Senator Boxer. Thanks. I am just going to address a couple 
of comments.
    Senator Barrasso's comments, and it will go off my time, 
don't worry about it, Senator Barrasso's comments lead me to 
believe he lives in an alternate universe. Red, white and blue, 
he says, about the energy supports, like oil that we import 
from countries who want to do us in. Really, that is not red, 
white and blue. It is the opposite. We have to get off of that. 
And harness the energies here in our Country and do it in a 
smart way, which, I think with the Clean Air Act help, we have 
shown we can do it.
    Senator Inhofe proved that when he talked about how we have 
had an expansion, for example, in coal. But because of the 
Clean Air Act and its work, we have managed not to lose control 
of the quality of the air.
    Then, and this is supposed to be a hearing on the Clean Air 
Act, he attacks the President on job creation. Again, an 
alternate universe. When President Obama took the oath of 
office, we were bleeding 800,000 jobs a month. The auto 
industry was on the brink. So let's talk about the facts. Let's 
not get so emotional about our political wishes for the next 
election that we lose site of what we are doing.
    Senator Inhofe. OK, let me respond also.
    Senator Boxer. You can respond on your time, just like I 
have responded.
    Senator Inhofe. Well, let me go ahead and respond to this, 
because I think----
    Senator Boxer. No. No. You are out of order.
    Senator Inhofe. We are not going to have enough time as it 
is.
    Senator Boxer. You are out of order. I am going to get to 
my questions.
    Senator Inhofe. With 9.1 percent unemployment, that is not 
what I call successful.
    Senator Boxer. When somebody stands here in this Committee 
and attacks the President of the United States for not doing 
enough on jobs when he took over and there was a bleeding loss 
of 800,000 a month, I am going to respond. Now there is free 
speech around here, and everybody has it, everybody can say 
what you want. But that doesn't mean it isn't responded to, and 
my friend can respond to me in his time.
    Senator Inhofe. In all respect, Madam Chairman----
    Senator Boxer. You can respond to me on your time. The 
Committee will come to order. I will add time to your 
opportunity to respond to me.
    Now, another myth around here is that greenhouse gas 
emissions are not covered in the Clean Air ct. It was repeated 
by my friend, the Ranking Member. I would tell him to look at 
te Supreme Court decision, which says because--this was a 
decision that was made when the Bush administration said 
exactly what my friend said, greenhouse gas emissions are not 
included in the Clean Air Act. This is what the Supreme Court 
said. ``Because greenhouse gases fit well within the Clean Air 
Act's capacious definition of air pollutant, we hold that EPA 
has the statutory authority to regulate the emissions of such 
gases.''
    So let's not make things up. Let's deal with it. Now, 
people didn't like it, on the other side of the aisle. That was 
this Supreme Court in a five-four ruling.
    So the other thing my colleague said, and this is my 
question to you, Administrator Jackson, my friend said, my 
friend Senator Inhofe said that the Clean Air Act is being 
implemented ``in a way Congress never intended.'' And I don't, 
he was not that specific about it. Could you respond to that 
charge? Are you doing anything that is out of the ordinary in 
terms of implementing this? Or are you following what the law 
says?
    Ms. Jackson. To the contrary, all of our rules are 
authorized by the Clean Air Act. The mercury standards are 
authorized by the Toxics Rules, Chairman, and the standards for 
soot, the standards for smog, the standards that are designed 
to fight asthma, bronchitis, heart disease and premature deaths 
are all specifically called out in the Clean Air Act.
    Senator Boxer. OK. I just realized that you didn't give 
your testimony. My friend was right.
    So what I will do is, at this point I will stop and turn it 
over to Senator Inhofe for 5 minutes to respond to me, and then 
we will get to you. I apologize.
    Senator Inhofe. Oh, all right. Well, I will make it short.
    First of all, because of the length of this thing and I see 
the participation that will be here, I will have to leave a 
little bit before 12 o'clock. So I am really concerned about 
the second panel.
    I would just say this. When our friend, Senator Barrasso, 
talked about the red, white and blue and about all of the 
above, it is so frustrating when we sit here and we look at the 
CRA that came out less than a year ago and it documented that 
we have the largest recoverable reserves in coal, oil and gas 
in the United States of America, and we could be completely 
weaned off of all Middle Eastern oil, if we would only develop 
our own resources. It is so ridiculous to even suggest that 
somehow if we restrict our recovery of coal, oil and gas, that 
somehow, somewhere down the road, that is going to reduce our 
reliance on the Middle East.
    Just the opposite is true. I go back to Oklahoma and I talk 
to people and they say, how can they possibly come up with 
that? I say, well, only in Washington will they do that.
    So I would say that we have those resources. We are going 
to be able to supply the energy for this Country. I think 
during the question and answer time, we will be able to pursue 
this whole idea of what we are talking about in terms of the 
health situation. We have an excellent witness on the second 
panel, I just wish I could be here for that.
    The last thing I would say, yes, you are right in terms of 
what you read in terms of the court decision, the five-four 
decision. It says, you have the authority if you want to do it, 
it does not mandate that you do it. I think you all understand.
    Thank you, Madam Chairman.
    Senator Boxer. Well, I promise I am not going to rebut you 
on this, but I will do it later.
    [Laughter.]
    Senator Boxer. I am very pleased to call on Hon. Lisa 
Jackson for her time to talk to us. And bring us all together.

STATEMENT OF HON. LISA P. JACKSON, ADMINISTRATOR, UNITED STATES 
                ENVIRONMENTAL PROTECTION AGENCY

    Ms. Jackson. Thank you, Madam Chairman. That is a big 
order. It is good to see you and the Ranking Member and the 
other members of this Committee. Thank you for inviting me to 
testify about EPA's ongoing efforts to protect our health by 
reducing the air pollution that affects millions of Americans.
    I know this subject very personally, because my son is one 
of the more than 25 million Americans battling asthma. Let me 
begin my testimony with a matter of fact. Pollution, pollution 
like mercury and particulate matter shortens and reduces the 
quality of Americans' lives, and puts at risk the health and 
the development of future generations.
    We know mercury is a toxin, a toxin that causes 
neurological damage to adults, children and developing fetuses. 
We know mercury causes neurological damage, including lost i.q. 
points in children. And we know particulate matter can lead to 
respiratory disease, decreased lung function and even premature 
death. These pollutants and others, including arsenic, chromium 
and acid gases, come from power plants. These are simple facts 
that should not be up for debate.
    However, Madam Chairman, while Americans across the Country 
suffer from this pollution, special interests who are trying to 
gut longstanding public health protections are now going so far 
as to claim that these pollutants aren't even harmful. These 
myths are being perpetrated by some of the same lobbyists who 
have in the past testified before Congress about the importance 
of reducing mercury and particulate matter. Now, on behalf of 
their clients, these lobbyists are saying the exact opposite.
    The good news is that to address this pollution problem in 
1970, Congress passed the Clean Air Act, which was signed into 
law by a Republican President and then strengthened in 1990 
under another Republican Administration. Last year alone, the 
Clean Air Act is estimated to have saved 160,000 lives and 
prevented more than 100,000 hospital visits. Simply put, 
protecting public health and the environment should not be an 
historically has not been a partisan issue.
    Despite all the distractions, let me assure you that EPA 
will continue to base all of our public health protections on 
two key principles: the law and the best science. Allow me to 
focus on two of our current activities.
    On March 16th, after 20 years in the making, EPA proposed 
the first ever national standards for mercury and other toxic 
air pollution from power plants. While many power plants 
already comply, the standards will level the playing field by 
requiring additional power plants to install widely available 
proven pollution control technologies. Deployment of these 
technologies will prevent an estimated 17,000 premature deaths, 
11,000 heart attacks, 120,000 cases of childhood asthma 
symptoms, 11,000 cases of acute bronchitis among children, 
12,000 emergency room visits and hospital admissions, 850,000 
days of work missed due to illness.
    This proposed rule, which is going through a public comment 
process, is the product of significant outreach to industry and 
other stakeholders.
    As we work at EPA to cut down on mercury and other toxins 
from power plants, we are also trying to reduce sulfur dioxide 
and nitrogen oxide through the Clean Air Transport Rule we 
proposed last year. This rule requires 31 States and the 
District of Columbia to reduce their emissions of these two 
pollutants which contribute to ozone and fine particle 
pollution across State lines, thereby significantly improving 
air quality in cities across the United States. Utilities can 
achieve these reductions by investing in widely available 
technology. Once finalized, this rule will result in more than 
$120 billion in health benefits each year.
    EPA estimates this rule will protect public health by 
avoiding 14,000 to 36,000 premature deaths, avoiding 21,000 
cases of acute bronchitis, avoiding 23,000 non-fatal heart 
attacks, avoiding 240,000 cases of aggravated asthma, avoiding 
440,000 cases of upper and lower respiratory symptoms, avoiding 
26,000 hospital and emergency room visits, and 1.9 million days 
of work or school missed due to illness.
    These numbers represent a major improvement in the quality 
of life for literally millions of people throughout the 
Country, especially working families, children and older 
Americans. While some argue that public health protections are 
too costly, history has repeatedly shown that we can cleanup 
pollution, create jobs and grow our economy all at the same 
time. Over the 40 years since the Clean Air Act was passed, the 
U.S. gross domestic product grew, grew by more than 200 
percent. In fact, some economic analysis suggest that the 
economy is billions of dollars larger today than it would have 
been without the Act.
    Simply put the Clean Air Act saves lives and strengthens 
the American work force. As a result, the economic value of 
clean air far exceeds the cost. Expressed on dollar terms, the 
benefits of the Clean Air Act Amendments of 1990 alone are 
projected to reach approximately $2 trillion in 2020, with an 
estimated cost of $65 billion in that same year, a benefit to 
cost ratio of more than 30 to 1.
    With legislation pending in Congress to weaken and gut this 
proven public health protection law, I urge this Committee to 
stand up for the hundreds of millions of Americans who are 
directly or indirectly affected by air pollution. I look 
forward to your questions.
    [The prepared statement of Ms. Jackson follows:]
    
    
   [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT] 
    
  
    Senator Boxer. Thank you so much.
    Because I already asked one of my questions, I am going to 
give my turn over to Senator lautenberg, and I will ask last.
    Senator Lautenberg. Thank you, Madam Chairman.
    I listen carefully to what our colleagues say. And I must 
say, I have to scratch my head in wonderment. When I hear that 
President Obama, such an ogre, that he wants to prevent 
everybody from exercising their free will to poison the 
atmosphere, to use material that we know is dangerous to the 
human race, and when I look and I hear that, and I think, I ask 
myself, and forgive me, I am asking my first question of me, if 
you don't mind, and that is----
    Senator Carper. Who is going to answer?
    Senator Lautenberg. You are listening? Senator Carper is 
listening.
    When do we hear about the courageous decision that 
President Obama made to take a huge risk to eliminate a giant 
terrorist threat to our people, and the post-mortem shows that 
they had more plans to kill our people and disrupt our 
functioning? So frankly, I have to tell you, I don't get it. 
And I know that o the other side, they read the same papers and 
everything else. But the interpretation is quite different.
    What is the cost of having a healthy child, of having a 
child that doesn't need constant medical attention? What about 
the financial side of that, that drains family incomes and 
doesn't permit them to think about positive things and how to 
have their families progress, but they have to take care of 
that sick child, they have to make sure that the environment is 
right?
    So things sound a little backward to me, I must tell you. 
And I hope that the American people understand that cut, cut, 
cut, cutting brings wounds, often, and wounds that are lethal 
in their final outcome.
    Thanks, Administrator Jackson, for those wonderful 
comments. Our planet has warmed at an unprecedented rate since 
we began burning fossil fuels for energy on a massive scale. 
What is the effect of these warmer temperatures on air quality, 
public health?
    Ms. Jackson. EPA's endangerment finding includes 
information that shows that as the climate changes in those 
areas that become noticeably warmer, that exacerbates what we 
talked about earlier, ozone alert days. Certain types of 
pollution in warmer temperatures actually combine to form 
ground level ozone, which is smog, which is one of the major 
triggers for asthma, bronchitis, respiratory problems in our 
children and in the elderly. But also, as you noted, in some 
healthy adults who are particularly susceptible to ozone.
    Senator Lautenberg. Madam Chairman, since I have very 
little time, I have to ask myself another question. And that 
is, do we look at the President and understand some of the 
things that are so positive, rescued the automobile industry, 
which was an American finding, and going down the tubes, and 
people are back to work and the companies are competing, jobs 
exist there.
    So the easiest thing to do, and we saw it the other night 
in the Republican debate, almost to a person, the only thing 
they could do was talk about how bad President Obama is, not 
offering any solutions that are positive. And that is what we 
get to see here as well, I am sorry to say, is that we hear 
about jobs that are lost, because we don't permit pollution to 
take place. You are darned right, that is what we are going to 
keep on doing.
    Madam Chairman, I have exhausted my questions of me. Thank 
you very much.
    Senator Boxer. Well, I thought your questions and the 
answers that you gave to them were excellent. But I know there 
is some division about that on the panel here.
    So we will go to our first Republican here, Senator 
Barrasso.
    Senator Barrasso. Thank you, Madam Chairman.
    Administrator Jackson, I would like to highlight a letter 
that was sent on June 10th to you by Congressman John Dingle 
and by 26 other House Democrats. As you know, former Chairman 
Dingle is one of the architects of the Clean Air Act. The 
letter states, and I have a copy of the letter, I don't know if 
you have had a chance to read it yet, this letter, signed by 
Congressman Dingle as the first signator and then 26 others.
    The letter states that the Utility MACT rule is 
``unparalleled in its size and scope for maximum achievable 
control technology rule, presents a set of new regulations with 
possible wide-reaching impacts on the way our Country generates 
and consumes electricity.'' The letter goes on, he says ``We 
must be mindful of the economic impact new regulations could 
have, especially with the complexity and breadth of 
applicability for this rule being so significant.''
    The letter continues: ``By the EPA's own analysis, this 
proposed rule will cost nearly $11 billion per year with retail 
electricity rates increasing.'' The letter also highlights 
errors in calculations that have come to light since your rule 
was proposed. The letter asks for extension of the public 
comment period for this rule. Given that one of the authors of 
the Clean Air act is asking for an extension, will you grant 
the extension of the public comment period?
    Ms. Jackson. EPA has not responded to the letter. I am 
certainly aware of it, Senator, and we will be responding 
shortly. We have made no determination yet.
    Senator Barrasso. Well, I am not a signator of the letter. 
But I am a member of this panel. Do you intend to expand the 
time for which comment can be made?
    Ms. Jackson. As soon as we have a decision, I am happy to 
give it to you, sir.
    Senator Barrasso. OK. Let me ask you a question about 
particulate matter. It is a revision that the EPA is currently 
undergoing. The particulate matter revisions include what we in 
the west call farm dust. You have said it is a myth that you 
intend to regulate farm dust. But yet you set the standard and 
the States have to implement that standard.
    So isn't it true that one of the recommendations that your 
staff has made was to lower the standard for farm dust in the 
final policy assessment that came out earlier this year?
    Ms. Jackson. Yes. The staff recommended either lowering it 
or retaining the current standard.
    Senator Barrasso. So I want to give you an opportunity to 
clear this up right now. Just, if you could please, tell rural 
America right now that you plan to retain the current standard 
and reject the recommendation of lowering the standard.
    Ms. Jackson. Senator, I know you are not asking me to, but 
to answer your question today would be to violate the 
administrative procedures that require us to propose, take 
public comment and then finalize a new National Ambient Air 
Quality Standard. So we have, and I have said several times, 
that we will propose that standard some time this summer. My 
words to rural America are, and I have said it myself as I have 
gone out to Iowa, to California, and will continue to go out 
and speak directly to people in rural America, is that we are 
concerned about your health, but we also are pragmatic and 
practical people. And our standards and proposal will reflect 
that.
    Senator Barrasso. You have already said it is a myth that 
you intend to regulate farm dust. So what----
    Ms. Jackson. No, sir, it is a myth for people to promulgate 
and continue to say that we are planning to do it. Because we 
have made no proposal. And so you cannot characterize our 
actions when there is no proposal for the American people to 
comment on.
    Senator Barrasso. Respectfully, it just sounds like a lot 
of bureaucratic response to some legitimate questions that a 
lot of people around the Country have. So I look forward to the 
response coming out of the agency.
    Ms. Jackson. I have to say that if someone says that we are 
doing something we are not doing, that is a myth. And we have 
not made a proposal to change the coarse particulate standard. 
We are required by law every 5 years to review the science, 
ensure that people in this Country are protected, including in 
rural America. I take very seriously that obligation.
    But I also am a practical woman who will look at how that 
plays out on the ground. Our staff have had listening sessions 
in rural America to do just that.
    Senator Barrasso. We appreciate that approach.
    My final question, according to the National Cattlemen's 
Beef Association, out of all the other agencies that regulate 
food safety and animal health, your agency is responsible for 
65 percent of the regulations that they face. These regulations 
are affecting the smallest producers around the Country, who 
can't afford the number of regulations coming at them.
    What I hear from our members of the Cattlemen's Beef 
Association, is this proportional? Have you done any kind of a 
cost estimate on the impact that this has on smaller operations 
and how they may end up having to consolidate and move to 
bigger companies?
    Ms. Jackson. Certainly our regulations do impact some, some 
of the cattlemen and ranchers and members of that organization. 
We work quite closely with them and will continue to do so.
    Senator Barrasso. Thank you, Madam Chairman. My time has 
expired.
    Senator Boxer. Thank you very much.
    Senator Whitehouse.
    Senator Whitehouse. I show up and I immediately get called 
on. How fortunate. My timing is right.
    Senator Boxer. Well, you were here, the first person here.
    Senator Whitehouse. We have had a lot of discussion around 
the Clean Air Act on the costs of compliance with the Clean Air 
Act. And in my opening statement, I mentioned the cost benefit 
comparisons. Clearly there is a cost here. There is also a 
benefit. And they were as low as four to one, benefit exceeding 
cost by four to one, and as high as 145 to one, potentially, 
for the Transport Rule.
    I have a particular interest in the AEP situation, because 
of the claims that they are shutting down because of something 
that you are doing. I thought it was that they were shutting 
down because it was something that a number of us did many 
years ago. I gather that the vast majority of that megawattage 
that is going, being taken offline is going to, is being done 
in compliance with that settlement from years ago. And my 
recollection of that settlement is that release that went out 
that AEP itself I don't believe objected to was that they would 
have to pay $4.6 billion to clean up to comply, but that the 
EPA indicated the savings to the Country from that cleanup 
would be not just one time $30 billion, but $30 billion plus 
every year.
    Could you tell us a little bit about the methodology and 
the rigor by which EPA and in some cases I guess OMB go about 
creating those cost comparisons? Are they fictional? Are they 
fancy? Are they well-founded in science and data? How do you do 
them?
    Ms. Jackson. Senator, both our cost analysis as well as our 
estimate of benefits are done by economists and by specialists 
in the field who have literally decades of experience in 
understanding the Clean Air Act rules. In general, our costs 
are an over-estimate and our benefits are accurate. We know 
that because there have been peer-reviewed studies and peer-
reviewed economics which we cite in our analyses that have 
confirmed the numbers we have.
    Senator Whitehouse. You have been doing this for a long 
time, it has been subject to criticism, critique and review.
    Ms. Jackson. We have heard doomsday stories----
    Senator Whitehouse. And in response to those criticisms, 
critique and review, it has held up.
    Ms. Jackson. Excuse me, Senator. Yes. Yes, it is not, it is 
common practice for industry to make doomsday claims about the 
cost and the impact of EPA regulations. It is why we have an 
entire Center for Environmental Economics to estimate costs. 
Because we do agree that those are critical in making decisions 
about the costs and benefits of rules.
    Senator Whitehouse. And of course, on the health side, some 
things are hard to cost.
    Ms. Jackson. I think that is right. I think every equation 
has two sides. One side is cost, but the benefits side, the 
things we can cost, we already know the benefits far outweigh 
the costs. But one of the more odd discussions we had early on 
is what is the value of a human life. And we actually have to 
value it, but of course, that doesn't value all the pain and 
suffering that goes along with illness and chronic disease.
    Senator Whitehouse. We had a witness from Rhode Island at 
that table a week ago describing the asthma problem in Rhode 
Island. Again, completely caused by out of State pollution 
sources, like the AEP plants that are being taken offline, 
thankfully, for Rhode Island's sake. And that the average 
length of stay in the hospital for a child who gets admitted to 
the hospital for an asthma attack is 2 days. As a parent, you 
think, if your child is in the hospital for 2 days, those 
aren't two regular days for you as a parent. Those aren't days 
when, particularly if you are a single parent, those aren't 2 
days when you are going to work. If you are paid by the hour, 
those aren't 2 days when you are getting a pay check. Those are 
2 days you are probably going to have to cover for later on.
    And is that the kind of cost that is hard to catch, and 
therefore you often underState the true cost?
    Ms. Jackson. We can calculate days away. But the cost to 
the economy, the cost to that employer who now has to make do, 
if she or he is compassionate, with one less employee for the 
day. But let me just say, as someone who has done that 2-day 
stint, I think it was a 3-day stint, I will never forget being 
under an oxygen tent with my less than a year old son, hoping 
he could breathe.
    And children do die. I received a letter last week from a 
mother in Philly, her 17 year old son died of asthma. My son is 
14, my other son is 16. It really hit home for me.
    Senator Whitehouse. And that whole cost of worry and 
concern is completely not counted in the industry equations, 
correct?
    Ms. Jackson. I think it is probably underestimated. We can 
count days, but we can't count everything that it means to a 
family, and their own economics, if they lose a job because 
they are not there.
    Senator Whitehouse. Thank you.
    Senator Boxer. Thank you, Senator.
    Senator Inhofe.
    Senator Inhofe. Thank you, Madam Chairman. I am just going 
to cover two things real quick here.
    First of all, a lot of us contend that the EPA doesn't 
really need the Air Toxics rule to regulate utility emissions. 
The EPA already has the National Ambient Air Quality Standards 
for PM 2.5 and a variety of other regulations, to make sure 
that these standards are met. The regulatory impact analysis, 
that is yours, that is the EPA, for the MACT rule estimates 
that the rule would create some 30,000 construction jobs during 
the compliance period and perhaps another 9,000 that would be 
more permanent jobs in the electric sector.
    However, it also states, and I am going to quote from it 
now, it says, ``Industries that use electricity will face 
higher electricity prices as a result of the Toxic Rule, reduce 
output and demand less labor. We do not currently have 
sufficient information to quantify these as a potential 
employment gains or losses.''
    We talked about for quite some time trying to be able to 
determine the cumulative effect of all these things. You have 
heard this so many times from me and from others of what all 
these things are actually costing in terms of jobs, in terms of 
money. And we have heard from a lot of the labor unions that 
have been testifying.
    But anyway, I have on the floor right now, the bill that I 
have, I have turned into an amendment that would go on the EDA 
that I am going to try to offer that would provide in advance 
the cumulative effect, financial effect of all these 
regulations. Would you support that? I am talking about looking 
forward, not looking back. Because you were just talking about 
this, and you were kind of analyzing what has that cost. I am 
talking about in anticipation of new rules would you support 
what we----
    Ms. Jackson. Senator, I believe that the economic analysis 
that EPA does is it proposes the rule. You cited one of our 
regulatory impact analyses. It is thorough, it is complete and 
goes very far in estimating what the real impacts of a rule 
will be.
    Senator Inhofe. My problem with that is, that is one rule 
at a time. I am talking about the cumulative effect. Right now 
there are some six different rules. And the cumulative effect 
is what really concerns me and what affects jobs.
    Ms. Jackson. Well, two points, sir, and I am happy to take 
a look at your legislation. Does it include benefits? Does it 
look at the cumulative benefits on American health?
    Senator Inhofe. Yes, at the net.
    Ms. Jackson. And so how is it--I would wonder about the 
difference in the OMB peer-reviewed report that shows that 
EPA's regulations have benefits that are literally an order of 
magnitude more than their cost.
    Senator Inhofe. All right. In the benefits and costs of the 
Clean Air Act from 1990 to 2020, that is a 30-year period, and 
it is your report, it makes some claims, the benefits of about 
$2 trillion a year and possibly as high as $5.5 trillion a 
year. And your statement to Congress and to the public led many 
to believe that this $2 trillion in benefits means the economy 
will be $2 trillion larger.
    Do you expect, or let me ask you three questions real quick 
here. Do you expect the $2 trillion in benefits would result in 
higher economy growth as measured by GDP by 2020? And will the 
$2 trillion that is referred to in estimated benefits result in 
any additional tax revenues at the Federal or State level in 
2020? And do you think benefit would result in any way in 
higher wages, personal or household income for the American 
public?
    Ms. Jackson. OK, let me first----
    Senator Inhofe. They are all the same question.
    Ms. Jackson. Yes, let me give you a couple of facts that 
may answer those three questions. First, over the 40-year 
history of the Clean Air Act, our GDP has grown 200 percent. So 
if history is any guide, we can do this. We can have safer, 
healthier air, and have a growing economy.
    No. 2, the study you referenced is a peer-reviewed study. 
So although it is an EPA work, it has been reviewed by others 
who look independently at real benefits. And in my testimony, I 
noted that some say our GDP would be even larger. I don't think 
dollar for dollar, I am not an economist, I am not claiming 
that there would be $2 trillion more in our GDP. But those are 
health care costs avoided in many cases. That means more money 
for someone to buy groceries, some money to pay bills that they 
would not otherwise have. And those things are all part of 
the----
    Senator Inhofe. My time has almost expired. But the study 
suggests that the effect of Clean Air regulations from 1990 to 
2010 will lower GDP by over .5 percent in 2020 and lower 
overall economic welfare by .3 percent. It is important to note 
that these are, that even these estimates don't reflect over $1 
trillion of new costs.
    Let me make one comment about the farm dust thing, because 
it was kind of funny, when I go back to Oklahoma, they say, 
they are talking about regulation of farm dust, and there is no 
technology there. So I had a news conference. And a lot of 
people had, we two people that had never been west of the 
Mississippi before. So we are down in Southwestern Oklahoma. I 
said, this brown stuff down here, it is dirt. Now, that round 
green thing, that is cotton. This up here is wind. Now, are 
there any questions?
    How do I tell these people that there is some kind of a 
technology up there that is going to allow them, in States like 
Oklahoma, States out west, that there is any kind of technology 
that is going to allow us to regulate farm dust?
    Ms. Jackson. Two things, Senator. First off, farm dust is 
already regulated under the coarse particle standards of the 
Clean Air Act. It is done because health studies show that by 
minimizing that you protect the health of people in rural 
America. It is done oftentimes by States who work very closely 
with conservationists at ways to try to keep the dirt on the 
farm, which I now know from my trips to rural America is a very 
good thing for farmers. They want their dirt on their farm.
    Senator Inhofe. Yes, they do.
    Ms. Jackson. So again, I would ask you to tell your 
constituents for me, until I can see them myself, that the EPA 
is mindful of the limits of practicality in trying to protect 
their health. But I don't think we want to turn our back on it.
    Senator Inhofe. All right, and I appreciate that. Because 
they contend that with everything they have and the technology 
available, they have reached that limit. And they look forward 
and say, what are we going to do?
    Thank you, Madam Chairman.
    Senator Boxer. Thank you. Thank you so much.
    Senator Carper.
    Senator Carper. Thanks very much.
    Ms. Jackson, great to see you. Let me just say, from the 
outset, you have been before us any number of times. We have 
had a whole lot of other administrators, your predecessors who 
have been before us, and many other witnesses, as you know. It 
is a joy to watch you do your job before this panel. Never lose 
your cool, always good with your answers. Just a great way 
about you. Don't change.
    I have just come from addressing the folks from the Ozone 
Transport Commission here on the East Coast from I guess Maine 
down to Virginia. I apologize for being late. One of the things 
I said to them I just want to mention here at the outset. I 
have worked with them and with a number of folks here on this 
Committee for almost a decade to try to reduce harmful 
emissions into our air. And by doing so, we sought to provide 
greater certainty to industry, some predictability and to 
States about the time tables, about the reductions that need to 
occur in the next decade.
    Ultimately, we have not been successful enacting 
legislation, to my disappointment. So it falls, my colleagues, 
it falls on EPA to do the job for us, to ensure we continue to 
clean our air and to strengthen at the same time our economy. 
And I contend that we can do both.
    I just want to go on record here today to say, I can do 
everything in my power to work with the Administration, to work 
with my colleagues, Democrat and Republicans, to protect the 
Clean Air Act. And the reason why is I am convinced that by 
doing so, we will go a long way toward ensuring that our 
children will have a chance to live longer lives, healthier 
lives, more productive lives and happier lives. So I just 
wanted to start off with that.
    I always like to quote different people of note. I like to 
quote Harry Truman. And one of my favorite Harry Truman quotes 
is, the only thing that is new in the world is the history that 
we forgot or never learned. That is a paraphrase. But if you go 
back to 1970, the guy who signed into law the Clean Air Act was 
not a Democrat, he was a Republican, as I recall.
    The other thing that I recall, I was over in Southeast Asia 
at the time as a naval flight officer in the Vietnam War when 
he signed this. But as I recall, there was a lot of naysayers 
who said, you know, it is going to kill the economy. And, why 
are we doing this? And it didn't kill the economy. We did clean 
the air, we saved a lot of lives, and we did it in a way that 
was actually good for the economy.
    In 1990, another Republican comes along, George Herbert 
Walker Bush. And what does he do? He signs the Clean Air Act 
Amendments of 1990, and some of the naysayers said at the same 
time, same thing, history repeats itself here, said, you know, 
this is going to kill the economy. Well, it didn't. It did 
clean the air, and we did it in a way that, tried to enact the 
legislation and implement it in a way that actually strengthen 
the economy. And ultimately, it did.
    And here we are again, 20 years later, and people are 
saying, you know, we have not done our job here. We should have 
passed the legislation. God knows some of us tried. But we have 
not done our job. And now it falls on you to make sure that we 
actually comply with the Clean Air Act.
    And folks are again saying, well, we can't do that because 
it is going to kill the economy. There is a lot of, room for a 
lot of empirical data to say that is not the case.
    The other thing I want to say, I just want to get this off 
my chest. I live in the State of Delaware. I used to work very 
closely with Christine Whitman, when she was Governor of your 
State, and later when she was EPA Administrator, we were part 
of the National Governors Association. Very active players in 
the National Governors Association. And it burned the heck out 
of us that in our States we had, I could literally close down 
my State. I could have closed down the highways, I could have 
closed down our plants, and we still would have been out of 
compliance for attainment for a number of Clean Air, dirty air 
emissions. We could have put our States out of business.
    It is not fair. I would just State to my friends that don't 
have to face this problem, there is a moral imperative here. In 
terms of the equity of the issue, that why should some States 
have to suffer, not from bad stuff that we put into the air, 
but the bad stuff that others do? It is like Sheldon was 
saying, it is just not fair. We need to level the playing field 
for all of us. Part of what we are doing here is to try to be 
fair.
    Here is my question. It deals with mercury. It is my 
understanding that we have a whole lot of scientific knowledge 
on the health effects of mercury. We have talked about it here 
before. Since the late 1990's, the EPA has found that mercury 
emissions from uncontrolled and from coal-fired plants are a 
health hazard to our kids. Is that correct, and can you take 
just a minute or so and give us a little more detail on what we 
know about mercury exposure and developing children's health?
    Ms. Jackson. Certainly, Senator, and thank you for your 
kind words.
    Mercury is inhaled and can cause serious neurological 
toxicity, pre-natal toxicity and toxicity in young children. So 
the concern then becomes reproductive or developmental defects 
as a result of exposure to mercury. Power plants are still 
overwhelmingly the No. 1 source of mercury in the air. And 
localized pollution from power plants that emit mercury end up 
in water bodies and can have significant impacts, well over 50 
percent of the impact. Because there is some global transport 
of mercury. But there is still a significant localized problem 
around those plants that emit it.
    Senator Carper. If I could just ask a quick followup to 
that, Madam Chair? Could you just give us a snapshot of what it 
is like for folks who are, particularly young people, to 
inhale, whether it is mercury or other toxics like dioxin, what 
is it actually like? What does it do to their health, if they 
live near one of those uncontrolled coal-fired plants? Are the 
health benefits from reducing these pollutants in EPA's cost 
benefit analysis of the air toxic regulation?
    Ms. Jackson. Yes, absolutely. For mercury, because of its 
neurological impacts, the end points are things like lost i.q. 
points. Very measurable and in children who are exposed before 
birth, we see impacts on thinking, cognitive thinking and 
memory and attention and language development and fine and 
visual motor skills. In addressing mercury, there are also 
other metals. You heard me speak about arsenic and cadmium. 
There are acid gases, hydrochloric acid and other acids that 
are emitted and are also toxins and are being addressed by this 
rule.
    Senator Carper. All right. I just would close with this. To 
my colleagues, I would say, we are in a battle, an economic 
battle with the rest of the world. Competition is a lot tougher 
than it was when some of us were born. And we need to be on our 
A game. And we need to be not taking away i.q. points, we need 
to be adding them if we are going to have a work force that is 
going to be able to compete.
    And with a health care system whose costs don't crush us, 
as they are today. Thank you, Madam Chair.
    Senator Boxer. Thank you.
    Senator Vitter.
    Senator Vitter. Thank you, Madam Chair, and thank you, 
Madam Administrator.
    Madam Administrator, a lot of the discussion has been, and 
I think properly so, about science at EPA being fully 
objective, being sound science. And just as a comment, I think 
a lot of our disagreement and a lot of our debate is the fact 
that this side of the podium, certainly myself included, 
doesn't have that confidence on a regular, ongoing basis, that 
decisions are based on rigorous, sound science.
    I truly feel, I know you are going to disagree, but forget 
about our disagreement, I am just trying to communicate a 
problem that is objective, it exists. I feel that there is a 
lot coming out of EPA based on ideology and not objective, 
sound science. I mentioned a particular experience we have had 
together regarding formaldehyde. I pushed for and eventually 
got a National Academy of Sciences panel to work on that.
    Do you agree that as an organization, National Academy of 
Sciences has with good reason a lot of credibility in terms of 
scientific assessment?
    Ms. Jackson. Yes, sir.
    Senator Vitter. And so I assume you would agree it is not 
some industry-captured group?
    Ms. Jackson. No, sir. They ensure that they are, do 
conflict of interest and rigorous review on their panels.
    Senator Vitter. Right. Well, as you know, there has been a 
lot of concern in general about the IRIS process across the 
board before that. And that National Academy of Science 
formaldehyde study was about the IRIS process. And they found 
that the risk assessment policies and practices of the IRIS 
office fell well short of meeting the benchmarks of objectivity 
and scientific accuracy and transparency in a number of 
significant ways.
    So my question in light of that is simple. What specific 
changes, reforms to the IRIS office and process overall have 
been made as a result of that report?
    Ms. Jackson. Well, thank you. First, let me just 
acknowledge that there were changes to the IRIS process prior 
to the report. Because upon becoming Administrator and Dr. Paul 
Anastas, as he came in as head of the Office of Research and 
Development, after he was confirmed, agreed and believed that 
there needed to be more transparency in the process, there 
needed to be peer review, there needed to be opportunities that 
brought the process out publicly, but also brought it to a 
close. Because we have so many IRIS assessments that because we 
haven't closed them, we are not able to say to the American 
people what risks they may or may not face.
    So that was done before the study. I have since charged Dr. 
Anastas, although he didn't need me to do it, but he has been 
charged with giving us further recommendations to respond to 
any unmet suggestions and recommendations made by the National 
Academies. Because I do agree with, I think your point, which 
is their review on formaldehyde made broader recommendations 
about EPA's process.
    Senator Vitter. Correct.
    Ms. Jackson. And I am committed to ensuring that each and 
every one of them is implemented to get the most robust risk 
assessment process we can have.
    Senator Vitter. Well, first of all, in terms of any changes 
prior to the report, I just point out that you and EPA fought 
like the dickens to avoid the NAS report. And you were 
basically, in that formaldehyde case, absolutely defending the 
IRIS process as fully competent and fully adequate. So to say 
that----
    Ms. Jackson. Well, I would say----
    Senator Vitter [continuing]. already making changes to that 
process that produced that flawed analysis seems to me 
completely inconsistent with that.
    Ms. Jackson. Well, let me just respond, because I would say 
that, fraud is not a word I would like to use in a U.S. 
Senator. But I disagreed strongly with your hold on Dr. 
Anastas' confirmation. Because I believe strongly that someone 
of his caliber and integrity was essential to ensuring we got 
the best science at EPA, which I am very much committed to.
    The formaldehyde assessment has indeed come out since that 
time. Just recently the National Toxicology Program listed 
formaldehyde as a carcinogen. And formaldehyde, as we both 
know, being from Louisiana, is an interest of primary 
importance to residents down there who feel that they were 
poisoned by FEMA trailers that included high levels and 
emissions of formaldehyde. So it is an emotional issue and one 
which I could not agree with you more, we need to bring the 
best science to bear on.
    Senator Vitter. Two quick questions. And I will close. 
Would the NAS report have happened without the hold?
    Ms. Jackson. No, sir, not at all.
    Senator Vitter. Just point that out for the record.
    Ms. Jackson. Absolutely.
    Senator Vitter. Second, go back to my original question. 
What specific reforms, what specific changes to IRIS after the 
NAS report have been made?
    Ms. Jackson. Why don't I get you, in writing, exactly what 
we are doing to change the IRIS process? All I would say is 
that the changes, if they were done before the report I would 
think we could both applaud. Because if they are responsive to 
the report and we have already instituted the changes, they 
will happen. And probably sooner than the report came out.
    Senator Vitter. Well, you can include that, but I would 
like to specifically know what changes and reforms have been 
made after the report, responding to what I think are clearly 
significant findings of the report that go to the broader 
integrity of the broader IRIS process.
    Ms. Jackson. Yes, sir.
    Senator Vitter. Thank you.
    Senator Boxer. Thank you, Senator.
    I am going to put in the record the Department of Commerce 
report that since the Clean Air Act was passed and signed into 
law by Richard Nixon, we have seen a 210 percent increase in 
gross domestic product. And you mentioned that, but I think it 
is important. Because what we are seeing here is hostile 
questions, in my opinion, this is the eye of the beholder, you 
may not feel that way, but I feel they are hostile questions 
from the other side of the aisle, the Republican side of the 
aisle, during this entire hearing. And in general, whenever we 
have a hearing on the environment. And they have every right to 
be hostile about it or feel, not support it.
    But I think it is important that we understand that the 
support among the American people for the work you do and your 
predecessors did and those who will follow you is huge. We have 
a chart, 69 percent of the people, and this was just done 
February this year, 69 percent think EPA should update the 
Clean Air Act standards with stricter air pollution limits. 
Stricter air pollution limits. Sixty-eight percent, this is a 
national poll, 68 percent believe that Congress should not stop 
EPA from enforcing Clean Air Act standards and 69 percent 
believe that EPA scientists, not Congress, should set pollution 
standards. And this was a poll done by a Democratic and a 
Republican polling firms, and their source here on the chart.
    Now, I would say, rhetorically speaking, again, probably 
asking myself a question, as Senator Lautenberg was asking 
himself, why on earth can't we come together on something that 
almost 70 percent of the people agree with is important to 
protect their health, protect their safety, and support the 
laws that are the foundation for a healthy America and sound 
economic growth? And I answer it, I don't understand why we 
can't come together. And I will keep trying to do that, as 
Chairman of this Committee.
    But again, respectful of a counter view, there are 33 
percent of the people who don't believe that. So I guess they 
are represented very well over here. Thank you.
    And I want to probe a little bit about these economic 
advantages. We know from this study, from 1970 to 2010, we saw 
an annual, annual prevention of more than 160,000 premature 
deaths. I hope the press hears this. Not just over the period 
of time, that would be terrific, if every year an average 
160,000 premature deaths are avoided.
    So when my friends talk about the economic costs of 
regulation, let me ask you, just as a human being, and a family 
member, in your family, if the bread winner dies 10 years early 
and doesn't work, isn't that a cost to the family? Let the 
record show he is nodding his head yes.
    [Laughter.]
    Senator Boxer. It is a horrific situation. If you suffer in 
your family a premature death because of the air pollution, if 
your child, as you mentioned, this horrible experience that you 
had, and it is so graphic, it just gives me the chills, as a 
mother and a grandmother, to think about what you went through, 
seeing a person you love more than yourself under an oxygen 
tent, struggling, and that little tiny body, to breathe. And I 
know what that is like. I had two premature babies. Just 
watching them gasping and trying to get the air, the fact that 
we can do something about that ought to bring us together, not 
having us interrupting each other and arguing.
    What a wonderful moment this is today, to look back at 
this. How good you must feel to head an agency that has that 
type of record. I don't know of any other agency I don't know 
any other agency, State or Federal, that could say that, in the 
first 40 years of this Act, we prevented in every year 160,000 
premature deaths. And that is why Richard Nixon lauded it. And 
that is why George Bush lauded it. This was brought to us by 
Republican Presidents, and now we struggle with our Republican 
colleagues who say, you can't, you shouldn't be doing anything 
about carbon pollution, you shouldn't, you know, you have to do 
what Congress said you ought to do, when that is exactly what 
you are doing.
    Let me talk about dust. My home base, my home is in a 
desert. And it is called Riverside County. And it has a tough 
air pollution problems, by the way, one of the worst in the 
Country. One of the reasons is, we have a huge amount, not 
surprising, of dust. And that dust carries problems with it. 
And what we do in our State, it is a combination of Federal, I 
am not talking about farms here, it is a combination of Federal 
and State law, there are very simple rules so we can mitigate 
that problem. They are dampened down, if you pass by a 
constructionsite, those trucks are going back and forth with 
recycled water, making sure that that dust stays down. 
Sometimes if an area is going to be vacant, they will put, they 
will plant it. They are doing that in Mecca, putting some of 
those, that greenery on top, so that we control it.
    So there are so many ways that we can move forward to 
protect the health and safety. And when that child was, your 
child, was struggling for life, for air, and you were there, 
you weren't working, as Senator Whitehouse eloquently said. And 
you were missing your work. Or you were missing doing things 
that you needed to do for your family obligations.
    And so to me, it is so clear. And that is why almost 70 
percent of the people want you to do your job, no matter what 
other people are saying.
    And I will close and ask you this. We saw the GDP growth. 
But here is the other thing that is overlooked. We are the 
largest producer, American is, of environmental technology, 
goods and services that are going to the rest of the world. I 
too was in that bipartisan trip to China, never saw the sun. 
Was there 9 days. And they were bragging 1 day, you barely saw 
it, barely saw it behind the clouds. They said, oh, what a 
great day. Meanwhile, everybody is thinking, I can't wait to go 
home and see a blue sky. We never saw that. We take that for 
granted.
    That didn't happen because we sat back. It happened because 
we put our environment and the quality of life of our families 
and their health and yes, economics, we put that into the mix. 
So what we see here in this sector is $300 billion in revenues 
coming from the environmental technology, goods and services, 
supports 1.7 million jobs. With small to medium size companies 
making up 99 percent.
    So I would ask you, in addition to the GDP growth, do you 
not see this as an economic benefit that is often overlooked in 
our Country?
    Ms. Jackson. Certainly. Even aside from the public health 
benefit and the money saved for American families, there have 
been estimates now on the benefits of the Clean Air Act alone 
with respect to the pollution control industry. The Economic 
Policy Institute just recently released a study saying that the 
Air Toxics rule would have a modest net impact on overall 
employment, likely creating 28,000 to 158,000 jobs between now 
and 2015. The University of Massachusetts and CERES released a 
study not long ago estimating that the standards, just two of 
our standards for mercury, for soot and smog, in addition to 
being lifesaving standards, will create nearly 1.5 million jobs 
over the next 5 years.
    So these are jobs that would be created in the next 5 years 
at a time when our economy is certainly, and our President is 
working to bring jobs to our economy. So it is not our primary 
job, but one of the happy, I guess outcomes, of an American 
public and a Congress who have always supported protecting 
clean air and our health, is that we have created an entire 
industry of Americans who lead the world in knowing how to do 
it.
    Senator Boxer. I want to thank you very much, Administrator 
Jackson. You have been very forthcoming. You had some softball 
questions and some hardball questions, which is good. And I 
just want to put in the record a letter signed by various 
members of the utility industry, including Austin Energy, Grid 
USA, PG&E, Calpine, defending the EPA. It was a letter in the 
Wall Street Journal. We are OK with the EPA's new air quality 
regulations, have you seen that? I think that is a testament to 
you, the way you handle yourself, the way you reach out to 
people. And I just want to say, every member here has a right 
to ask you tough questions and so on and so forth.
    But I just want you to know, I believe, my personal view, 
the American people are on the side of clean air and what you 
are doing. And I thank you from the bottom of my heart for your 
work and we say goodbye to you, and we call up our panel.
    Sarah Bucic, American Nurses Association, Jerome Paulson, 
Dr. Paulson, American Academy of Pediatrics, Dr. Harvey 
Brenner, Ph.D., Professor at the University of North Texas, 
Cathy Woollums, Senior Vice President and Chief Environmental 
Counsel, MidAmerican Energy Holdings Company, Dr. Alfred 
Munzer, Pulmonary and Critical Care at Washington Adventist 
Hospital.
    We are so pleased to have you here. We are sorry we ran 
late, but it just shows you the importance of this issue. And 
many Senators feeling very strongly about it.
    Senator Inhofe. Madam Chairman.
    Senator Boxer. Yes, sir.
    Senator Inhofe. I would like to ask if it would be 
permissible, you just took 8 minutes, I would like to have 8 
minutes, which I am sure you will give me, but I would like to 
ask my questions first. As you know, I have to leave at 5 
minutes til. If I could have my 8 minutes of questions, it 
would be primarily for Dr. Brenner and for Cathy Woollums.
    Senator Boxer. So you are going to ask----
    Senator Inhofe. Before their opening statements.
    Senator Boxer. You want to ask your questions and get 
answers to your questions before the opening statement?
    Senator Inhofe. Yes.
    Senator Boxer. Well, that would be highly unusual.
    Senator Inhofe. Well, I am highly unusual.
    Senator Boxer. Well, I want to accommodate you. So this is 
what I am going to recommend. Let's just start the opening 
statements and we will stop in time for 8 minutes----
    Senator Inhofe. That won't work with me, as you know.
    Senator Boxer. You have to leave at noon?
    Senator Inhofe. No, I have to leave at five til. And right 
now we are looking at----
    Senator Boxer. Fine. At five to, we will stop and we will 
turn to you for questions.
    Senator Inhofe. No, no. I have to leave----
    [remarks off microphone]. I just request that I could go 
ahead and ask my questions now and get answers since I have to 
leave at 5 minutes til, and I appreciate the fact that Senator 
Barrasso is back.
    Senator Boxer. Well, go ahead. It is very unusual and I 
don't like this. But because I am so fond of you as a human 
being, I will say yes.
    [Laughter.]
    Senator Inhofe. I will always remember the first thing I 
said after the 2010 elections, when it came in, I said, I just 
want you to know I am going to be just as nice to you 2 years 
from now as you are to me. So here we go.
    Dr. Brenner, my understanding is that a typical regulatory 
impact analysis for the rule proposed doesn't attempt to 
quantify the adverse health effects of negative economic 
impacts. Now, given your work in this area, and by the way, we 
had some comments about you from our witness last week, do you 
believe that we would obtain a better understanding of the 
total impact of EPA's proposals if the agency quantified the 
adverse health effects of negative economic impacts?
    Mr. Brenner. Thank you, Senator Inhofe. What we have been 
missing, I think, in the entire conversation over the impact on 
health of environmental regulations is the fact that we treat 
these pieces of legislation as either yes or no, either we have 
clean air or we do not have clean air. There is no one that I 
have ever heard of who is not in favor of clean air.
    The question is in terms of regulations, how much. Not 
whether or not. The issue of adverse health effects pertain not 
just to the quality of air and water and soil, they pertain to 
the implications for changes in the structure of the economy 
that would be brought about by changes in regulations 
generally. The most important implications are in income and 
employment. GDP is the single most important factor in the 
health of countries. There is nothing, there is no single 
factor of greater importance to life expectancy across the 
world or in industrialized countries or in our Country than the 
GDP, national income and wealth.
    Additional to that, and related to that, is the economic 
position of individuals, which of course is heavily influenced 
by their employment rate. Studies going back to those of the 
Joint Economy Committee of Congress back in 1976 and 1984, 
under the Humphrey-Hawkins legislation, which were 
fundamentally much of the basis of the Humphrey-Hawkins 
legislation, which I was responsible for, studies of this kind, 
demonstrated clearly, measurably an impact over between six and 
10 years of the loss of employment to increases in morality 
from cardiovascular diseases, suicide, homicide, cirrhosis, 
diabetes and so on.
    So there is another entire side of the equation which the 
discussion legislatively has not been taking into account. The 
problem can be resolved mathematically. What it requires is a 
balanced model in which we estimate the implications of 
regulations for health, which we have begun to do, and we have 
heard a bit about that so far in the last discussion. But what 
has been missing from the entire discussion, and what needs to 
be placed forward, are the implications for health of any 
change in the economy, especially income and employment.
    Just to point out the general statement, in all of 
epidemiology, that has to do with the health of national 
populations, there is no single factor in industrialized 
countries that is more important than economic status.
    Senator Inhofe. For health?
    Mr. Brenner. For health.
    Senator Inhofe. And the reason I wanted to hear this is 
that is because that is all we hear up here, it is so easy to 
talk about bad health and we must like kids and all this stuff. 
But the effects of the economy, I spent a lot of time in 
Africa. That is where it is evident, when they go in there and 
they say, we are going to have restrictions on emissions there, 
which would just have a devastating effect on them, because it 
is related directly to their ability to live, to eat, to 
survive.
    So I appreciate that. So I would just say, in your opinion, 
would significantly higher energy costs carry with it an 
adverse public health consequence and would be the leading 
indicator, is that correct?
    Mr. Brenner. To the extent that such higher energy costs 
affect the rate of inflation, that is, increase the rate of 
inflation, or reduce income per capita, or increase the 
unemployment rate, they would have measurable substantial 
damaging effects on health.
    Senator Inhofe. I appreciated that very much.
    Ms. Woollums, according to the United Mine Workers of 
America, EPA's new regulations will force American energy 
companies to lay off over 250,000 workers. National Economic 
Research Associates estimates that the new regulations will 
cost the American economy almost 1.5 million jobs. Is the 
MidAmerican Energy Holdings concerned the impact of the EPA's 
actions on the company's employees? Are these job losses even 
more troubling in light of Dr. Brenner's testimony on the 
impacts of economic decline and public health?
    Ms. Woollums. Certainly, Senator. Any time we talk about 
massive changes in employment within our industry, certainly 
there are concerns there. We have 1,200 people who work in the 
generating facilities around our company. The average level of 
income for those employees among those 1,200 is $70,000 a year. 
Those are pretty high-paid, high-skilled jobs to lose, given a 
fundamental shift in the method of generation.
    Senator Inhofe. Were you here during my opening statement?
    Ms. Woollums. I was, indeed.
    Senator Inhofe. I talked at that time, and since that time 
I had an occasion to talk to Stuart Solomon, who is the 
President of the Public Service Company of Oklahoma, which is a 
subsidiary of the American Electric Power. He said, due to the 
EPA rejecting Oklahoma's regional haze SIP, and imposing the 
Federal FIP, it will cost PSO, that is in Oklahoma, $800 
million in the installation of scrubbers at two units over a 3-
year timeframe, which cannot be met. It is just kind of like 
the dust regulations, the technology is not there, it can't be 
done.
    Further, another Oklahoma electric company, our other big 
one, the OG&E, must install scrubbers at four units, costing 
$1.2 billion. That is $2 billion in increased electricity bills 
for Oklahomans instead of the EPA working with the State to 
develop a plan consistent with the Clean Air Act to provide the 
utilities fuel flexibility and realistic timeframe to implement 
the new emissions limits.
    Do you pretty much agree with these figures? Is Stuart 
pretty much on target on these?
    Ms. Woollums. I can't speak specifically to the individual 
company costs. What I can tell you, however, is that one of our 
utilities, PacifiCorp, who has been similarly preparing for the 
regional haze requirements, and from whom we have gotten an 
indication by EPA that our plan is not acceptable, in terms of 
the emission reductions. But we currently have a plan that 
includes $1.3 billion of expenditures to comply with those 
requirements.
    Senator Inhofe. Well, things are always of most concern 
when you hear the figures back home. So I appreciate that very 
much, and thank you, Madam Chairman, for that opportunity.
    Senator Boxer. Thanks.
    So what I am going to do in my first round is to just, 
before you each speak, I am going to ask the two witnesses some 
questions also.
    Well, Mr. Brenner, you should have been heartened by the 
fact that since the Clean Air Act was signed into law by 
Richard Nixon, our Nation's GDP has increased by 210 percent, 
No. 1. No. 2, I think rhetorically we all know if someone dies, 
the breadwinner in the family dies because they keel over and 
have a heart attack, and we know that in 2010 alone, is that 
correct, that 160,000 lives were spared, because of the work of 
the Clean Air Act, clearly you ought to put that into your 
little diagrams. Because if somebody is unable to work, their 
income goes way down.
    So I just would hope you would do that.
    And then I wanted to ask you, Ms. Woollums, do you agree 
with this following statement: Scientists generally believe 
that fossil fuel combustion and other human activities are the 
primary reason for an increased carbon dioxide concentration in 
the earth's atmosphere.
    Ms. Woollums. As a general proposition, Madam Chair, yes.
    Senator Boxer. OK, good. I am very glad to hear that. And 
we will put in the record that MidAmerican Energy Holdings 
representative agreed that fossil fuel combustion and other 
human activities are the primary reason for an increased carbon 
dioxide in the earth's atmosphere.
    And also, would you say that MidAmerican's expenses 
incurred by its reducing emissions of toxic air pollution are 
prudently incurred costs?
    Ms. Woollums. Yes.
    Senator Boxer. Good. So it is important that your 
organization believes that any expenses dealing with reduction 
of emissions of toxic air pollution are prudently incurred 
costs. And that really makes me happy, and I wish Senator 
Inhofe was here to hear that.
    Yes, sir?
    Mr. Brenner. May I respond to your question, Senator Boxer?
    Senator Boxer. Yes. Well, you already responded to it. But 
do you disagree with my point that----
    Mr. Brenner. Yes, I disagree, Madam Chairman.
    Senator Boxer. You disagree that GDP went up 210 percent?
    Mr. Brenner. No, I disagree with the implications of 
causality. It is a little like saying, anything that goes up 
with GDP is a cause of increase in GDP, or that the GDP is 
responsible for it. There is no necessary relationship between 
those two things.
    Senator Boxer. Well, there is a relationship when people 
say the opposite, that you had said, that our GDP will suffer 
because of these rules and regs. Then it seems to me there is a 
way to disprove or prove your point. And your point is 
disproven.
    Mr. Brenner. I did not say that the regulations would 
necessarily disrupt the GDP. That is a function of other 
studies. My studies are on health. What they demonstrate is 
that increases in GDP are the fundamental basis for increase in 
life expectancy. The idea that two factors move together 
through time has no implication for causation. It would be a 
little like saying, because our health care expenditures in the 
United State have gone up astronomically, that has been good 
for GDP. It has been horrible for GDP, and it is a fundamental 
debate in our Country.
    Senator Boxer. Yes, well, here is what I find so 
interesting about you. You are here to make a point. And I 
thought your point was that GDP is a very important part of any 
country's quality of life, right?
    Mr. Brenner. Essential.
    Senator Boxer. We agree so strongly. Economic growth is 
critical. And I believe, and this is where we may or may not 
agree, that if you can't breathe, you can't work. And the GDP 
is a result of people working. And if you can't function, and 
if you're in the hospital with a heart attack premature, it is 
a problem.
    So I think if I take your very interesting comments, I just 
think the whole notion that cleaning up the environment harms 
our economic growth is a myth that has been with us since the 
time I first got elected to office. I hate to tell you when it 
was. But the first time I got elected--I won't tell you--no, it 
was 1976. I was an environmentalist then, and that was the 
first argument that you got.
    And here is the beauty. All these years have gone by and we 
see the proof. That in fact, we see an industry developing 
clean energy technology. There are only a couple of industries 
in America that actually export product here to the tune that 
we do with our clean energy. The other happens to be the 
entertainment industry. That is a different hat that I wear in 
another day.
    But thank you both. Now we are going to go back to regular 
order and call on our representative from the American Nurses 
Association, Sarah Bucic.

STATEMENT OF SARAH BUCIC, RN, MSN, AMERICAN NURSES ASSOCIATION 
                AND DELAWARE NURSES ASSOCIATION

    Ms. Bucic. Good morning, Chairman Boxer, members of the 
Committee, congressional staff and guests. My name is Sarah 
Bucic, I am a registered nurse with a master's degree in 
psychiatric mental health. I am currently pursuing a master's 
in environmental health and will be a clinical instructor in 
the fall.
    I have been a registered nurse for 10 years, practicing in 
a variety of settings, including inpatient and outpatient 
mental health, research and geriatrics. It is a privilege to 
appear before you today on behalf of the American Nurses 
Association and the Delaware Nurses Association to discuss the 
importance of the Clean Air Act, the positive impact it has had 
on our Nation and the fundamental importance of continuing to 
support the Act that protects public health.
    The ANA is the only full service professional organization 
representing the interests of the Nation's 3.1 million 
registered nurses through its State nurses associations, 
including the Delaware State Nurses Association. Nurses 
constitute the single largest group of health care workers. And 
the ANA clearly recognizes the fundamental tie between the 
quality of our environment and the health of the Nation.
    Since the early years of the nursing profession, nursing 
leaders such as Florence Nightingale and Lillian Wald have 
recognized the role of nurses in controlling the influence of 
environmental factors on health. Florence Nightingale herself 
sated, ``Keep the air within as pure as the air without.'' I 
too now understand the connection between the environment of 
our health, having been diagnosed with cancer shortly after the 
birth of my daughter. Since its initial enactment and 
subsequent amendments, the Clean Air Act has had a proven track 
record of success, cost effectively cutting dangerous pollution 
and positively impacting our environment and health.
    The American Lung Association's 2011 State of the Air 
report shows, despite the Clean Air Act Amendment's successes, 
we have a long way to go. The American Lung Association's State 
of the Air report looked at levels of ozone and particulate 
matter, types of pollution with the most significant known 
health impacts at monitoring sites across the Country from 2007 
to 2009, and it revealed some startling facts.
    While the study identified clear improvement in both 
categories over past years, serious problems remain. More than 
154 million people, that is just over half the Nation, endure 
pollution levels that make the simple act of breathing 
hazardous to their health. For nurses, these are our patients. 
They receive Albuterol treatments in the ER, they stay to rest 
sometimes in the hospital for several days. This is an 
avoidable consequence of pollution that has a direct impact on 
people's lives and on our Country's health care costs.
    The negative effects of exposure to pollutants are 
premature death, increased mortality, exacerbation of asthma 
and more. Approximately 1.2 million children and 3.8 million 
adults with asthma live in areas with high levels of short-term 
particulate matter pollution. A bad air day for them isn't just 
an inconvenience when they have to wait until late at night to 
go get their gas. A bad air day can mean life or death. A bad 
air day can keep people from living their lives.
    I have a straw here. This is the size when you have an 
asthma attack. Your throat gets smaller than that. During 
nursing school, we did an experiment, when we were nursing 
students. We had to breathe through it and hold our nose for 
about 30 seconds or a minute, and imagine trying to do any 
productivity during that. It is very difficult. And I have 
heard by people with asthma that it is even worse than this, 
because you actually have less profusion.
    Your airway is much smaller than this during an asthma 
attack. I want to make it clear that asthma isn't a condition 
where you get your medication and move on . It can be deadly. 
According to the National Heart, Lung and Blood Institute and 
the National Institutes of Health, each day 11 Americans die 
from asthma. That is 4,000 Americans each year. In addition, 
individuals need to be seen in the emergency room.
    A friend of mine, while driving her son to the emergency 
room during an asthma attack, had to answer the following 
question: Mommy, am I going to die? Imagine having to answer 
and say, no, you can't die from asthma, but in truth, you don't 
really know. Because this is the reality for asthma patients.
    According to the EPA, by 2016, cleaning up toxic emissions 
from power plants will save 17,000 lives each year, prevent 
11,000 heart attacks each year, prevent 110,000 asthma attacks 
each year, eliminate 12,200 hospitalizations and emergency room 
visits each year, add 850,000 days when people don't miss work 
each year. Healthy people means more work days, more 
productivity.
    Human health is linked to our environment. We are all in 
this together. As nurses, we encourage our patients to make 
responsible, healthy choices. But this personal responsibility 
alone only goes so far. We need to have discharge instructions 
for industry to be as clean as possible. Investments in clean 
air benefits all of us and will pay dividends in lower health 
care costs.
    The bottom line is pollution creates more patients. We owe 
it to ourselves and our children to build on the success of the 
Clean Air Act by supporting life-saving standards under this 
landmark public heath law. Thank you.
    [The prepared statement of Ms. Bucic follows:]
    
    
 [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]   
    
   
    
    Senator Boxer. Thank you so much.
    Dr. Paulson, welcome. American Academy of Pediatrics.

STATEMENT OF JEROME A. PAULSON, M.D., FAAP, AMERICAN ACADEMY OF 
                           PEDIATRICS

    Dr. Paulson. Thank you. Good morning, Madam Chair and 
members of the Committee.
    I am Jerome Paulson, and I am proud to represent the 
American Academy of Pediatrics at this hearing regarding the 
Clean Air Act and public health.
    In the last 40 years, the Clean Air Act has led to 
incredible improvements in the environment, in the health of 
infants and children and in the quality of life for all 
Americans. However, the impacts of the Clean Air Act have not 
been uniform across the Country. Millions of Americans still 
live in areas where monitored air fails to meet EPA standards 
for at least one of six criteria pollutants and in some areas, 
air quality has actually decreased.
    Since the Clean Air Act was enacted, scientific research on 
air pollution has shown that the serious health effects of air 
pollutants are experienced at levels much lower than were 
previously considered safe, and has consistently proven that 
reducing exposure to air pollution leads to healthier 
individuals. The American Academy of Pediatrics believes it is 
necessary for Congress to strengthen the Clean Air Act, and the 
EPA's authority to set, implement and enforce Clean Air Act 
regulations throughout the Country.
    As a pediatrician who has cared for children suffering from 
the health impacts of air pollution, I am incredibly concerned 
about potential threats to clean air and the effects of air 
pollution on children's heath. Children are disproportionately 
vulnerable to all environmental exposures. But as it relates to 
the air, they breathe more air in and out of their lungs every 
minute. They have higher levels of physical activity. They 
spend more time outdoors, and they also have proportionately 
greater skin surface exposed to the environment.
    Children are also more impacted by air pollution due to 
their extensive lung growth and development after birth. Eighty 
percent of the air sacs in the lung where oxygen is absorbed 
and carbon dioxide is released are formed after birth. And 
changes in the lungs continue through adolescence until 
children reach their adult height. Air pollution is associated 
with impaired lung growth that may have permanent, lifelong 
impacts on an individual's ability to breathe.
    Ambient air pollution has also been linked to sudden infant 
death syndrome, and mortality due to respiratory disease in 
normal birth weight infants. Children with underlying or 
chronic respiratory disease are even more susceptible to the 
adverse effects of air pollution. For children with asthma, the 
most common chronic disease in childhood, ozone levels below 
current EPA standards are associated with increased respiratory 
symptoms and the need for rescue medication.
    According to the EPA's recent report, the benefits and 
costs of the Clean Air Act from 1990 to 2020, the Clean Air Act 
requirements will cost about $65 billion per year, but the 
benefits are projected at $2 trillion per year, most of which 
is saved through reduced morbidity and mortality. As a 
pediatrician, the Clean Air Act is a tremendous cost savings 
representing not just economics, they represent children, fewer 
children suffering from asthma attacks, fewer hospitalizations, 
less respiratory tract illness, improved lung capacity and 
function for growing children and healthier infants and 
newborns. Treating chronic conditions that are created or 
exacerbated by air pollution is currently expensive to our 
public and private health sectors. And the costs continue to 
increase.
    At a time when lawmakers and we as a Nation are focused on 
trying to control costs, controlling air pollution may be part 
of the answer to that problem. The American Academy of 
Pediatrics recommends in the strongest terms that the Clean Air 
Act should not be weakened in any way that decreases the 
protection of children's health. Weakening standards now will 
almost certainly result in increased emergency room visits and 
hospital admissions, increased direct costs and increased 
indirect costs. Air quality standards should ensure the most 
vulnerable groups are protected, potential effects of air 
pollution on the fetus, infant and child should be evaluated 
and all standards should include a margin of safety for 
protection of children.
    If we fail to protect children against air pollution, we 
accept the cost of living with and treating preventable birth 
defects, chronic diseases and disability among our Nation's 
infants and children.
    In conclusion, the American Academy of Pediatrics commends 
you, Madam Chairwoman, for holding this hearing today to call 
attention to the public health impacts of the Clean Air Act. We 
look forward to working with you to continue to improve air 
quality and children's health throughout the Country. I 
appreciate this opportunity to testify and I will be pleased to 
answer any questions.
    [The prepared statement of Dr. Paulson follows:]
    
    
    
   [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT] 
    
    
  
    Senator Boxer. Thank you, Doctor.
    Next we will hear from, again, Dr. Harvey Brenner, his 
opening statement.

 STATEMENT OF M. HARVEY BRENNER, PH.D., PROFESSOR, SOCIAL AND 
         BEHAVIORAL SCIENCES, UNIVERSITY OF NORTH TEXAS

    Mr. Brenner. Again, thank you, Madam Chairman. It is truly 
a great honor to be in this house and to be addressed by you.
    Senator Boxer. Well, thank you.
    Mr. Brenner. Epidemiological studies on the effect of 
environment and occupational toxins on health have been done 
for a long time. As we have heard testimony and as is well 
known in the field, there are certainly significant health 
effects, particularly in areas of lung disease and 
cardiopulmonary effects and asthma.
    But we have had no estimates on the potential effect on 
health of highly stringent regulation or on losses of income 
and employment in the industries affected. Interestingly, as I 
will show, we do have studies at the national level on the 
effect of income loss and unemployment on health, but almost 
none for environmental risks. In a word, we do not know at this 
point what the effect of environmental risks are at the 
national level.
    In fact, income per capita for a society is the single most 
important factor influencing mortality throughout the world and 
especially in industrialized countries like the United States. 
In industrialized countries, we know that the higher the level 
of income of individuals, the lower the illness and morality 
rates attributed to the great majority of infections, chronic 
diseases and mental disturbances.
    Moving from the individual to the National level, however, 
real GDP per capita indicates the availability of basic goods 
and services, nutrition, potable water, sanitary engineering, 
housing and other means of climate control, transportation and 
primary care. At the national level, real GDP per capita, 
especially for industrialized societies, also conveys the 
capacity of the society to invest in the development of science 
and technology, improved working conditions at higher 
technological levels of safety and health, financing of 
education at all levels, stabilization of the income of 
individuals and small businesses, and the many types of social 
protection, unemployment insurance, active labor market 
policies, health insurance, disability issuance, social welfare 
payments, to impoverishment and frail populations and children, 
social security and retirement benefits.
    To the point, again, Madam Chairman, that you raised on the 
relation between economic growth and cleaner air, there is a 
real relationship, as you say, there is no disagreement on the 
relationship in our Country in particular between economic 
growth and cleaner air. The question is, why is that true? It 
is true because that GDP allows us to invest in the technology 
which provides the clean air. So in the first instance, it is 
the bolstering of the GDP that allows any of this to happen, 
and of course, allows implementation of the regulations put 
forward.
    Second, the unemployment rate is well established as a risk 
factor for elevated illness and mortality rates in 
epidemiological studies performed since the 1980's. In addition 
to influences on mental disorders, suicide and alcohol abuse 
and alcoholism, unemployment is also an important risk factor 
in cardiovascular disease and overall decreases in life 
expectancy.
    Subsequent studies of historical change in unemployment and 
mortality rates, especially cardiovascular in other European 
and western countries supported the early United States and 
British studies. These countries included France, Germany, 
Italy, Belgium, Netherlands, Finland, Sweden, Japan, Australia 
and New Zealand.
    At this point, I would like to just make reference to the 
chart over there. This is a study during the year 2005. You can 
see in two-letter acronyms the relationship between mortality 
rates, which are at the very top, as you see, this little RU 
for Russia, and close to the bottom we see Japan with the 
highest life expectancy in the world. The Untied States is 
somewhere close to Japan. I wish it were a little closer.
    But in any case, the two major predictors of life 
expectancy here are the gross domestic product and employment, 
especially labor force participation.
    Next slide, please.
    [Slide shown.]
    Dr. Brenner. This is the same picture, but now I have these 
little circles, where you can see the Roman numerals I, II and 
III. The countries in the III level are the countries with the 
lowest level of income. And we have Russia, Moldavia, Ukraine. 
And down at the bottom, we have the western countries with the 
highest levels of income in the world with the highest level of 
expectancy in the world.
    Next slide, please.
    [Slide shown.]
    Dr. Brenner. This is the same sort of picture. This time we 
have 40 countries. And this is the year 2008. This is the year 
of the great recession, the initial year. And you can see the 
connection between the two, the lineup of the countries along a 
45 degree line is very, very tight. This means a very, very 
high degree of predictability. In fact, we can account for over 
90 percent of life expectancy among all of our different 
countries in the western world and in Europe, based largely on 
GDP and factors like employment.
    The final implications, the conclusion of this is, there is 
no doubt in anyone's mind that regulation of the environment is 
fundamental to health. There is no doubt in anyone's mind. The 
question only is the degree to which the regulations should be 
ahead of or behind the level of technology and income that the 
society holds.
    I think you were perfectly right in your initial comments 
of the need to bring the two sides together. When we have the 
research that will concentrate on the income and employment 
side, I think we can actually do that and do not just cost 
benefit analyses but cost effective analyses as we taught them 
where the ultimate objective is health. Thank you.
    [The prepared statement of Dr. Brenner follows:]
    
    
 [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]   
    
    
    Senator Boxer. Thank you. I think this was terrific, and I 
feel better about what you said before.
    Ms. Cathy Woollums, please go ahead.

STATEMENT OF CATHY S. WOOLLUMS, SENIOR VICE PRESIDENT AND CHIEF 
   ENVIRONMENTAL COUNSEL, MIDAMERICAN ENERGY HOLDINGS COMPANY

    Ms. Woollums. Thank you, Madam Chair. I am Cathy Woollums, 
Senior Vice President and Chief Environmental Counsel of 
MidAmerican Energy Holdings Company.
    We have five U.S. energy platforms, including two 
utilities, MidAmerican Energy Company in the Midwest and 
PacifiCorp in the West and Northwest, which serve retail 
electric and natural gas customers in 10 States.
    Our Midwest utility, MidAmerican Energy, has a resource 
base that is about 52 percent coal, 21 percent natural gas, 7 
percent nuclear and 20 percent wind, hydro and biomass. 
PacifiCorp, which operates 78 power plants across the West, has 
a resource base slightly higher in coal, but also 21 percent 
wind, hydro and geothermal. Indeed, our two utilities are No. 1 
and No. 2 respectively in the U.S. in ownership of wind-power 
generation among regulated utilities. We have built over 2,300 
megawatts of wind and are building nearly 600 this year. So by 
the end of this year, about 26 percent of MidAmerican Energy's 
generation capacity will come from wind.
    Our other three U.S. energy platforms are two interState 
natural gas pipelines and CalEnergy, which operates 10 
geothermal plants in California.
    You have heard from witnesses this morning about the health 
costs related to the new EPA regulations. I am going to discuss 
briefly the compliance costs of these regulations. Every 
utility is implementing its own unique compliance strategy 
based on numerous factors that include its resource base, 
impact on reliability, capital costs, operation and maintenance 
costs, age of its existing power plants, cost of replacement 
power and projected load growth. Section two of my written 
testimony contains a rule by rule overview and brief 
explanation of our compliance strategy, including EPA's 
regional haze rule, which is aimed at visibility improvement, 
not health.
    Many of these regulations are not new. Indeed, we have made 
substantial investments in emissions control equipment over the 
past decade, and have budgeted for additional projects in the 
next 10 to 12 years. Through 2010, our two utilities have spent 
nearly $1.6 billion in capital expenditures for required 
emission control equipment under these EPA rules, including 
mercury. We estimate total compliance costs will be about $5.3 
billion.
    It is very hard to translate these projected costs into 
specific percentage rate increases to our customers in all 10 
States in which our utilities operate. But let me give you two 
metrics to demonstrate the magnitude of these costs. 
PacifiCorp' fossil plants have a net value today, after 
depreciation, of about $3.38 billion. Compare that number to 
the estimated $1.3 billion that PacifiCorp expects to spend on 
additional environmental controls between now and 2022, and 
that gives you a relative sense of the cost of these pollution 
control devices to our customers. Our Midwest utility, 
MidAmerican Energy, those figures are $1.1 billion net value 
today after deprecation, compared to an estimated $510 million 
in expenditures between now and 2020.
    What does all this mean to our customers, the utility 
industry and the economy? First, we are concerned about the 
cost and timetables for implementation of the rules. These 
compliance costs will increase rates to our customers, just as 
they are faced with increased rates for other major capital 
expenditures, including new power plants to meet increasing 
load growth and to further diversify our resource mix, as well 
as transmission issues.
    Indeed, our PacifiCorp customers are already seeing double 
digit annual rate increases. It is therefore critical to 
minimize the cost impact of these rules. Second, if the 
implementation time tables remain unchanged, these compliance 
costs will be shouldered by our customers in the form of higher 
rates and a very narrow window from 2013 to 2015. Third, we are 
concerned about the costs, that compliance costs will have a 
domino effect and may dramatically increase production costs 
for industrial plants and could result in job losses. Fourth, 
coal units premature retired in response to these EPA rules 
will have remaining book value issues to address in the form of 
recovery.
    Last, we are concerned that forcing all U.S. coal plants to 
comply with these rules during such a short timeframe will make 
it very hard to find and train skilled domestic craft labor. We 
are also concerned that a compressed timeframe will cause a 
dramatic rise in the cost of labor and materials for both 
retrofits and new generation as demand for skilled labor and 
pats will greatly outstrip supply. We are already seeing this 
in the marketplace. For example, we just finished negotiating a 
contract for the installation of scrubbers, bag houses and 
selective non-catalytic reduction at two of our facilities in 
2013 and 2014. The costs are about 20 percent higher than we 
anticipated.
    Emission reduction projects are complex, they take years to 
execute, and we have to work with our State regulators to 
define the technical requirements and then address the rate 
recovery issues. We can't wait for just in time compliance. 
Thank you.
    [The prepared statement of Ms. Woollums follows:]
    
    
    
  [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]  
    
    
     
    Senator Boxer. Thank you.
    Dr. Munzer.

STATEMENT OF ALFRED MUNZER, M.D., PULMONARY AND CRITICAL CARE, 
                 WASHINGTON ADVENTIST HOSPITAL

    Dr. Munzer. Thank you, Madam Chair.
    I am Dr. Alfred Munzer, and I am a physician specializing 
in lung disease and practicing at Washington Adventist Hospital 
in Takoma Park, Maryland. I am delighted to appear before the 
Committee on behalf of the American Thoracic Society.
    I spend my days treating people with serious conditions 
like asthma, chronic obstructive pulmonary disease, 
sarcoidosis, lung cancer, and any number of serious respiratory 
diseases, many of which are unknown to the general public. 
Through a combination of medications, interventional procedures 
and lifestyle modifications, I work with my patients to help 
control the respiratory diseases.
    There is one thing neither I nor my patients can control, 
and that is air pollution. Air pollution plays a major role in 
causing and exacerbating respiratory illness. From years of 
clinical experience, I know that when the D.C. area has a Code 
Orange or Code Red day, patients will suffer the effects. Those 
with asthma will experience acute exacerbations of their 
condition, making every breath they take more labored. The 
emergency room at our hospital will be filled with patients 
with serious respiratory distress. In most of these cases, 
these patients didn't do anything wrong or different. They just 
happened to be unlucky enough to breathe highly polluted air.
    While I am not an air pollution researcher, my clinical 
experience of the impact of air pollution on respiratory health 
is backed up by countless peer-reviewed studies in the United 
States and abroad. The science documenting the adverse effects 
of air pollution on human heath is comprehensive, consistent 
and compelling. Unfortunately, that science is also under 
attack.
    Industry regulated by the Environmental Protection Agency 
has started a campaign to discredit the research that is used 
to support EPA's regulations under the Clean Air Act. Some 
Members of Congress appear to be taking up the mantra of 
discrediting or openly discounting the validity of EPA-
sponsored research. This is a mistake and is a distraction from 
what we all should be focusing on: reducing air pollution to 
improve everyone's health.
    The EPA's science is sound, and its methodology is strong 
in its conclusions. But the EPA is not the only source of 
credible science that shows that air pollution matters. 
Respected scientific agencies in the United States and around 
the globe have documented the adverse effects of air pollution. 
The NIH has supported a number of studies that found that air 
pollution, particularly ozone and particulate matter, is bad 
for everyone's health. And this is especially true for 
children.
    Silverman and colleagues demonstrated warm weather patterns 
of ozone and fine particulate matter that disproportionately 
affects children with asthma and appears responsible for severe 
attacks that could have been avoided. More and colleagues in 
California conducted a study that showed that current levels 
experienced in Southern California, ozone contributes to an 
increased risk of hospitalization for children with asthma.
    In another study by the National Institutes of Heath, Dr. 
Balmes and colleagues demonstrated that traffic-related air 
pollution lead to measurable decrease in lung function. Even 
the American Petroleum Institute has contributed to the 
scientific literature. In an API-funded study, Dr. Schelegle 
and his colleagues demonstrated that in chamber studies, ozone 
concentrations below 75 parts per billion decreases a key 
measure of lung function in young, heathy adults.
    For the record, I will include a brief list of other 
important studies that demonstrate that air pollution continues 
to be an important health issue in the United States. In 
conclusion, the science is consistent and comprehensive and 
comes from multiple credible sources, including the EPA. I hope 
Congress and the EPA can put the questions about the scientific 
validity of the air pollution studies to rest and start 
focusing on the real problem: how best to move forward with 
eliminating the threat posed by air pollution. The control of 
air pollution is part and parcel of our national defense.
    [The prepared statement of Dr. Munzer follows:]
    
  [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]  
    
       
    Senator Boxer. Thank you very much.
    I am going to open up the question time and then I am going 
to turn the gavel over to Senator Carper to conclude.
    Thank you all. You are all very straightforward. I 
appreciate it.
    Dr. Paulson, talk to me about exposure to mercury, either 
during pregnancy, what the impact is on the fetus, and what is 
the impact on a little child who is exposed to mercury? Ms. 
Woollums complained a lot about the mercury rule. And I am 
going to get to her. Yes, you did, and I am going to ask you 
some questions.
    Talk to me about what happens when there is too much 
mercury.
    Dr. Paulson. Mercury is a neurotoxin. It damages the brain 
and results in decrease in i.q. of children who are exposed.
    The change is particularly important when looked at on a 
population scale. A shift in i.q. of as little as five points 
in the population as a whole means a radical decrease in the 
number of gifted and talented individuals in the population, 
and a marked increase in the number of people with intellectual 
disabilities. So small changes in i.q. at the individual level 
have a major impact at the public level. It is very important 
to decrease the amount of mercury that comes out of power 
plants.
    Senator Boxer. And as you know, there is a rule currently 
to do that. I assume you are supportive of that rule?
    Dr. Paulson. Yes, ma'am.
    Senator Boxer. OK. And the nurses are as well? The rule on 
mercury?
    Ms. Bucic. Yes.
    Senator Boxer. OK. Is that true for you, Dr. Munzer.
    Dr. Munzer. Yes, it is.
    Senator Boxer. OK. So I am going to talk to the person here 
who is representing the people who, when they supply us with 
electricity, have a problem because there is a lot of mercury 
emissions. As I listened to you over and over again, for your 
entire discussion, you mostly talked about this rule and what a 
problem it is. And I need to talk to you about this, because 
you are the environmental counsel. So I am thinking that you 
would want to see them make progress here. And you are asking 
for delays and all the things, and you are saying that there 
is, this was one thing you said. It is hard to find labor? You 
have got to be kidding. I thought you said in your testimony 
that if we do this, it is hard to find the labor.
    Ms. Woollums. I am sorry, it is hard to find what?
    Senator Boxer. It is hard to find the labor. Yes. You said 
in your testimony it was hard to find labor to do the work.
    Ms. Woollums. Yes, and with all due respect, I disagree 
with the characterization relative to my statements on mercury.
    Senator Boxer. OK. It is just my subjective listening to 
it, it seemed like a lot of complaining about the mercury rule. 
But we will go back to the statement, see how much of your time 
you took about that. It was a heck of a lot of it. But talk to 
me. Why would you say it is hard to find labor?
    Ms. Woollums. Because we are talking about, and let me go 
back to the mercury rule, I actually----
    Senator Boxer. I am asking you, why is it hard to find 
labor? That is my question.
    Ms. Woollums. Because we are talking about installing a 
great number of pieces of equipment within very short periods 
of time.
    Senator Boxer. OK. Well, let me make your life better. We 
have the AFL-CIO telling us there is sufficient labor to cover 
the needed work on the power plant. People want jobs. So I 
would be glad to, there is a high unemployment, we are talking, 
my Republican friends are talking about that. We are saying, 
yes, we have to do more about jobs. So that is just not 
happening.
    Now, do you feel, just Ms. Woollums, if you saw somebody 
throw a dart and it was meant for the dartboard, but it went 
over the other way and it hit a child, I am assuming you would 
hold that person responsible, would you not, for throwing that 
dart in an unsafe manner? Yes or no?
    Ms. Woollums. It depends on the circumstances.
    Senator Boxer. I will say it again. A child is out there, 
say, 17 years old, and playing darts, and doesn't look around, 
doesn't check to see who is there. There is a bunch of kids 
standing on either side. There is no protection. Throws the 
dart and it hits somebody else. Would you suppose that child 
has some culpability in what happened, or the parent who 
allowed that to take place?
    Ms. Woollums. You have changed the dynamic slight, but 
what----
    Senator Boxer. Yes or no? Yes or no? If someone, let me put 
it this way, if someone hurts someone else, do you think they 
ought to be held responsible?
    Ms. Woollums. It depends on the cir----
    Senator Boxer. Oh, really? OK. Well, how about this. 
Somebody, OK, decides to do something in their yard without 
taking all the proper precautions that are listed by the 
manufacturer of this product. They go out there and they just 
don't do anything right, there is people nearby and they get 
hurt. Are they responsible, if they knew about this?
    Ms. Woollums. In that circumstance, I would say yes.
    Senator Boxer. OK. Well, my belief is, if you know that 
your plant is spewing out this poison, poison that doctors say 
unequivocally causes brain damage in children, and you complain 
about this or that and the other, and guess what, your poison 
from the Midwest where you are is going to his State, is going 
to his State, is going to his State. And they are doing 
everything right. And they are just standing by. And their 
people are going to the emergency room.
    So I guess what I want to say to you, after finally getting 
an answer to my I thought was a simple question of 
responsibility, is that we all have responsibility for what we 
do, especially if our byproduct of what we do is producing one 
of the most dangerous toxins. And that is not the only toxin.
    So I would just hope that you would go back to your people 
and tell them, just for me, I don't speak for a soul else, that 
I think it is time to step up to the plate. The fact is, I have 
a chart here, I ask unanimous consent to put it in the record, 
of the power plants in the Untied States, many of them are 
super old. They have either got to be brought up to code, 
fixed, with the best available technology or close them down. 
You can't keep on going.
    As I said, when I went to China, I never saw the sun. And I 
want to tell you, Ms. Woollums, you ought to go to China. 
Because you see the impacts of people, a government who could 
are less about the health of, they don't give a darn about the 
people there. All they want is, getting to Dr. Brenner's point, 
is they should work, work, work, work, work, work, work. But 
they don't care. And the people are suffering because of it.
    So this issue of the mercury rule, today we are talking 
about the Clean Air Act, the mercury rule, the mercury that 
goes in the air. I think as Environmental counsel, I hope you 
will tell them that I hope they will see this as a win-win as 
they, yes, their consumers have to breathe clean air as well as 
pay their electric bills.
    And if you ask them, because we asked people, 69 percent of 
them want us to do tougher, tougher rules on air. All over the 
Country, I don't care what State, from Wyoming to California, 
anywhere. This is a Republican and Democratic poll just done a 
couple of months ago. And I believe it is time for good 
stewardship here. And you are the environmental counsel. And I 
hope and pray that instead of fighting these rules, you will 
work with us, you will work with the EPA. And let's get some 
rules out there that work.
    Because I will tell you, I have been hearing Senator Carper 
for more years than I can tell you talking to me about mercury. 
I am in a different position. We don't have that kind of 
problem in our State. But this is serious stuff. And so I hope 
you will take that message back for me, doesn't come from 
anybody else. It is just my message, step up to the plate, 
corporate responsibility, caring about people's health and 
understanding that if you can't breathe, you can't work. If 
your child is brain damaged, your life changes. You can't have 
a life that is normal. And I hope you will take that back.
    And I thank my colleagues, and I would ask Senator Barrasso 
to take his time, and turn the gavel over to Senator Carper.
    Ms. Woollums. Madam Chairman, I will take that message back 
to my company.
    Senator Boxer. Thank you.
    Ms. Woollums. One thing I would like to add is MidAmerican 
has already begun the process of being a leader in the mercury 
charge. And as a matter of fact, we were one of the very first 
companies, back when our plant became operational in 2007, to 
install activated carbon injection for mercury control.
    Senator Boxer. Excellent. Well, it is time to help us with 
this rule and do even more. Because if the technology is there, 
it helps us. Thank you very much.
    Senator Barrasso. Thank you very much, Madam Chairman.
    Dr. Brenner, you said in your testimony that the 
unemployment rate is a well-established risk factor for 
elevated illness and mortality rates in epidemiological studies 
performed in the last 30 years or so. You said the 
unemployment, which is now 9.1 percent, was at 10 percent in 
spite of all the promises that the President made that if we 
passed his so-called stimulus plan that it wouldn't go above 8 
percent, you said that the unemployment rate is also an 
important risk factor in heart disease, overall decreases in 
life expectancy. Could you elaborate a little bit on what the 
impact to children is with regard to parents who are 
unemployed, and how unemployment affects a child's health in 
terms of a household with unemployment?
    Mr. Brenner. The most thorough studies that we have 
indicate that the employment status of the breadwinner is 
crucial for the entire family. So one interesting study 
published in 1982, I believe, in the Journal of the Lancet, the 
major international medical journal, demonstrated that when the 
head of household is unemployed, within 10 years there is an 
increase in the mortality rate of the spouse, even though the 
spouse will not have experienced any employment changes.
    There are numerous studies on the effect of unemployment on 
the socio-economic status of the family. When the effect of 
lowering the status of the family occurs to pregnant women, to 
children, to families where there are children in the one to 4 
years of age, the studies indicate that as long as 40 to 50 
years later, there are elevated levels of mortality, 
particularly cardiovascular mortality.
    So it is a phenomenon that sweeps through time, even though 
we think of it normally as occurring in a very discrete way, 
here it is and it is gone tomorrow. In our current economy, for 
instance, which is just before us, obviously, we not only have 
relatively high unemployment rate, we have one that is very 
long. We have one of the longest periods of lengthy 
unemployment again in our history, since the Second World War. 
Those effects are much, much larger, because they have effects 
into the next period of employment.
    The reason for that is that once people lose work, for a 
long period of time, they tend to lose their skills. And if 
they are employed again at all, it is a much lower wage level 
typically. They lose seniority, they lose retirement rights and 
the rest of it, we are familiar with. So this is a lifelong 
situation that goes on that characterize the unemployment rate.
    Senator Barrasso. So then your opinion would be that the 
more we could do to actually get people working again, in terms 
of actually being things for the general overall health of all 
these very skilled physicians and their patients, one of the 
best things we could do is actually improve the economy, get 
people back to work, raise the gross domestic product, raise 
that, lower the unemployment rate, and we ought to be focusing 
on the economy.
    Mr. Brenner. It is the very best thing we can do, without 
any question.
    Senator Barrasso. All right. Ms. Woollums, going through 
your testimony, if it does seem that all these additional rules 
and regulations and red tape coming out of Washington, and 
specifically the Environmental Protection Agency, and we did 
hear testimony that there have been incredible improvements in 
air quality in this Country over the last 40 years, but that 
these additional costs are going to be borne by families who 
are already having a hard time making ends meet, and that these 
rules and regulations are going to make things worse. Is that 
your impression of what you are seeing across the Country?
    Ms. Woollums. Yes, and as a matter of fact, Senator, in 
your home State, our most recent rate case asked for 
approximately a 20 percent increase, part of which reflects the 
increasing regulation, primarily driven by the regional haze 
regulations.
    Senator Barrasso. And I am sorry that Senator Boxer has 
left, Mr. Chairman, as she kind of ran over a while. I would 
like to use a little bit of additional time. I know I have a 
couple of minutes left, maybe if I can go another two or three 
beyond that?
    Senator Carper.
    [Presiding] No way. The Chair will be generous but not 
foolish. I am supposed to be somewhere else right now, but just 
go ahead.
    Senator Barrasso. If you could just talk a little about the 
mercury rule, I think there were some things you were trying to 
get out and weren't able to. I would be happy to continue as 
Chairman if you need to leave in an expeditious manner.
    Senator Carper. I have got all day.
    [Laughter.]
    Senator Barrasso. Please. There were some things you didn't 
get a chance to say.
    Ms. Woollums. Certainly. We support moving forward with the 
mercury rule. That is not the primary piece of our objection 
and concern. It is, as a general proposition, fairly 
straightforward to control mercury. The issue is largely 
attributable to the hydrochloric gas and other non-mercury 
metals that are the basis of the rule that we have concerns 
about. As I referenced, our newest facility that already 
controls mercury, we have actual operating experience. And that 
operating experience also suggests that the stringency of the 
standard will be extremely challenged on a brand new facility 
with a full suite of controls.
    Senator Barrasso. The Chairman had mentioned the AFL-CIO 
and some of the apparent people that are available to work. But 
I understand that some unions have actually come out opposing a 
number of the regulations from the Environmental Protection 
Agency, saying if you shut down coal-fired coal plants, that a 
number of additional jobs, union and non-union, will be lost. I 
don't know that that applies specifically to your company, but 
I think you have a general overview of what is happening 
nationally. Could you comment on that, please?
    Ms. Woollums. As a general proposition, any time that there 
is a loss in an industry such as ours, where you have highly 
skilled individuals, but they are not necessarily highly 
educated individuals, it is very difficult to retrain them to 
go into other types of industries. This is what they have done 
their entire lives. And as Dr. Brenner referenced, employed 
individuals tend to contribute greatly to society.
    Senator Barrasso. Dr. Brenner, yes, sir?
    Mr. Brenner. Forgive me, I think there is an essential 
point that somehow I wasn't able to make clearly. If we want to 
be very stringent with regulations, let us say we all agree 
that that is a great thing to do, even if we wish to do that, 
without the investment capital from industry, it cannot happen.
    As the Chairman pointed out, with the best available 
technology. The point is, to have the best available technology 
or even moderately good technology, you need investment. If the 
GDP is harmed, if firms are harmed, they cannot make the 
investment. Therefore, the primary focus needs to be on 
sustaining the firms before they can take action that could 
actually support that kind of legislation.
    Senator Barrasso. Thank you, Mr. Chairman.
    Senator Carper. You are quite welcome.
    To our witnesses, I just thank you so much for joining us 
today. Some of you have been with us before, and it is great to 
see you again. I am especially grateful to Ms. Bucic. Has 
anybody ever mispronounced your name? Has anybody ever 
pronounced it correctly?
    Senator Whitehouse, why don't you go ahead and ask your 
questions.
    Senator Whitehouse. Thank you very much.
    I am interested in the, I don't know, what you might call 
kind of the misallocation problem and where we go with that. 
There are two issues. One is that you have polluting 
industries, let's say, the power industries. And the cost of 
compliance is 100 percent on them. But the benefit is societal. 
It is in the health care system, it is in the education system, 
it is in other people's salaries and jobs. It is in, and it is 
hard to put the number together.
    I could see the argument, let me go back to the AEP case 
that Rhode Island and other States filed many years ago. When 
that was resolved, my recollection is that AEP had to spend 
$4.6 billion to clean up its act. But that the societal 
savings, the benefit of that cleanup, was $30 billion, not just 
that year, but going forward.
    So if I were a private investor, and somebody said, if you 
invest $4.6 billion in this project, it will pay you $30 
billion a year, that is a no-brainer. And we have this battle 
because there is a dislocation between the utility that has to 
pay the $4.6 billion and the Country at large, or the State at 
large or the region at large that gets the benefit of the 
cleaner air.
    I am wondering, and clearly if it was $4.6 billion in and 
$4.6 billion out, I think there would be a pretty good case to 
be made, why undertake the effort? It turns out into a net 
wash.
    But let me ask Ms. Woollums first. Isn't there a point at 
which the societal benefit justifies the emitter having to 
spend money in order to protect, in order to be able to take 
advantage of that benefit? And I am wondering at what point you 
think it begins to make sense? Is it one to one, is it four to 
one, is it five to one? We have some information that on the 
Transport rule, it might be as much as 145 to 1, which is 
clearly a payback anybody in their right mind would leap at. At 
what point do you think it makes sense for the industry to be a 
little bit more cooperative about accepting that this is an 
important responsibility for the Country? Again, one to one, 
two to one, five to one, ten to one? Where do you think that 
falls?
    Ms. Woollums. Senator, with all due respect, I am not an 
economist. And I don't know that I can approach the question 
from the perspective you have asked me to. My role frankly is 
very akin to Lisa Jackson's. My role is to follow the law. My 
role is to ensure compliance with the regulations. And whatever 
regulation is passed, my company will comply with.
    Senator Whitehouse. But clearly, there are two roles you 
have. You have a role to comply with the law, you also have a 
role to advocate as to what the law should be. You are here 
representing this company in that role, you are not here in 
your compliance role, you are here in your advocacy rule. It is 
a legitimate role, this is the United States of America, you 
get to do that. My point is, in your advocacy role, is there a 
point where the payback becomes enough that the company, 
instead of sending people to challenge the rule says, you know 
what, that is sensible, we should do that, it is good for the 
community, it is good for the State it is good for the Country, 
the payback is huge, we get it. We collect our revenues through 
rates that are approved and we can ordinarily collect these 
costs any way. We will just go for it and not kick up a fuss.
    Ms. Woollums. And I am probably not going to answer your 
question, but I don't view my role as being an advocate. I view 
my role as being an educator to tell you what the costs of 
compliance are going to be.
    Senator Whitehouse. And so you just, if it were 50 to 1, 
you would still be here educating us in favor of not going 
forward with these?
    Ms. Woollums. I am not educating you in terms of not going 
forward with the regulations. I have not said that we should 
not move forward with the regulations.
    Senator Whitehouse. OK. So you are fine with going forward 
with the regulations?
    Ms. Woollums. We will comply with whatever regulations 
Congress passes or EPA implements.
    Senator Whitehouse. Got you. The other issue is the cross-
State misallocation, a State like Missouri, for instance, does 
100 percent of its power with coal or pretty close to 100 
percent of its power with coal, and we are downwind of a lot of 
it. If you look at some of the maps, you can actually see the 
power plants along the Ohio River Valley. And they point right 
at New England.
    So if the wind is coming across them, it is picking up not 
the load of one power plant or two or three or four, but one 
after another. And many of them have built high stacks, whose 
purpose appears to be inject that effluent up high enough that 
it falls on my State instead of on theirs. And indeed if I am 
not mistaken, Senator Carper has made this point very 
passionately and eloquently earlier, if I am not mistaken, 
there are some States that are actually in attainment, even 
though they are emitters, because the dump it up into the 
atmosphere and it falls on my State, which like Delaware, is 
not an attainment State, could never be an attainment State 
because of the pollution that is raining down on us from other 
States. I don't have any political say in what those States do. 
My only hope is EPA.
    So if EPA gets wounded in its ability to protect the Clean 
Air Act, I have a real problem on my hands, because there is 
nobody looking out for Rhode Island's interest in Missouri. 
That is my guess, anyway.
    Anyway, I see my time is expired. I apologize.
    Senator Carper. It kind of makes you wonder if people 
aren't just picking on the little States. What do you think?
    Senator Whitehouse. Maybe older States.
    Senator Carper. Maybe that is better.
    I want to ask, first of all, a question of Sarah Bucic. I 
just would say, we talked earlier, Senator Whitehouse and I 
have spoken many times here about the idea that other States 
get cheap energy, they don't cleanup their emissions. They get 
cheaper energy, they have reasonably clean air and we ended up 
with more expensive energy and dirty air. We concluded a long 
time ago that Federal standards are the best way to ensure 
consistent air pollution reductions occur around our Country, 
whether they happen to be little States, old States, big 
States, young States.
    Your thoughts about whether Federal standards are the best 
way to ensure consistent air pollution reductions, please?
    Ms. Bucic. I think Federal standards are integral, because 
of what you just stated. Small States can do all that they can 
and my county that I live in is in non-attainment for 
particulate matter 2.5 and ozone. And like you said earlier, we 
could close down all of the industry in our State, and it still 
wouldn't put us in attainment. That is the air we breathe.
    We give our patients these directions as nurses, to do 
these specific things, these are your discharge instructions, 
do this. It is interesting that other industries don't have 
those kinds of prescriptions. As a hospital, if you threw all 
your syringes out, people would find that to be problematic. 
You were asking earlier about, Senator Whitehouse, about at 
what point does something become important to do. Well, that 
would be a good example. If I threw all my trash into my 
neighbor's yard, that would be bad.
    So I think at some point, Federal regulations are the only 
thing that can protect States, all the States.
    Senator Carper. Thanks. A question, if I could, for Dr. 
Munzer. I would ask Dr. Paulson and Ms. Bucic to take a shot at 
this one as well.
    As some of my colleagues know, I like to run. Last couple 
of weeks have been very special, because our oldest son is 
home. He is 22 years old, he is a tri-athlete. I get to run 
with him maybe once a week. He runs me into the ground. And it 
is a humbling experience, but we all need to be humbled.
    I remember some times in Delaware running, especially in 
the summer, when I wondered whether I was doing more harm than 
good for my body because of the air quality. I know plenty of 
times, I was a naval flight officer for many years and got to 
serve all over the world. I can remember being in some places 
and running when I knew I was doing more harm than good.
    In Delaware during the summer, we oftentimes have what we 
call Code Orange days, worrying about the high levels of ozone 
for a particular day. I would just ask the three of you if you 
could maybe take a minute or two to describe how high levels of 
ozone actually damage my lungs, my son's lungs, other people's 
lungs, if we take a long run on a Code Orange day. If I do this 
kind of thing often, I run a couple of days a week, but if we 
do this kind of thing often, could we permanently scar or 
damage our lungs? Do you want to start off, Dr. Munzer?
    Dr. Munzer. Thank you very much. Ozone is a very, very 
powerful irritant to the respiratory tract. It causes swelling, 
inflammation of the air passages. As they swell, it becomes 
more and more difficult to have air pass through the air 
passages, go through the air passages, making breathing much 
more labored.
    In addition to that, ozone is also a cellular poison. So it 
interferes with the lung's ability to cleanse itself of 
bacteria and viruses, making us much more susceptible to 
respiratory infections.
    Now, when a person runs, a healthy person, the amount of 
air that the move in and out of their lungs increases easily 
ten-fold, which means that they increase their exposure to air 
pollution tenfold as well. So even for healthy individuals, it 
is not wise to be exercising outdoors when the air is polluted, 
like a Code Orange day.
    Senator Carper. Ms. Bucic.
    Ms. Bucic. Ozone is obviously something good that should be 
in the upper atmosphere. But when it is in the lower 
atmosphere, it is a very bad chemical. It reacts, we have these 
high ozone days. And if you have more than nine, you go into 
non-attainment. I believe in Delaware we are close to seven or 
eight already, Code Orange days. These are things that aren't 
supposed to be in the lower atmosphere. They are not supposed 
to be on the ground. So any kind of extended exposure to them 
is very bad for you.
    Senator Carper. Thanks.
    Dr. Paulson, again, the question, can you just describe for 
us how high levels of ozone can actually damage our lungs if we 
are out there running long distances on one of these Code 
Orange days?
    Dr. Paulson. Yes, Senator Carper, thank you for the 
question.
    I want to talk about two particular sets of research, one 
that comes out of Southern California that shows that children 
growing up in more polluted areas, include ozone particulate, 
SO<INF>x</INF> and NO<INF>x</INF>, have smaller lungs when they 
are 18 or 20 than kids who grow up in less polluted areas. Not 
so much that they are symptomatic at that point in time. But I 
do really worry what happens to somebody at 20 if they have 
less lung reserve than somebody else when they get to be 60, 70 
or 80. So that is one set of research that gives me concern.
    Another set of researchers, if you look at varsity 
athletes, and I certainly was not a varsity athlete in high 
school, but if you look at people who are in three varsity 
sports, the fittest of the fit, I can't imagine one varsity 
sport, so I certainly can't imagine three, but the fittest of 
the fit, now, when do we send our high school athletes out to 
practice? Late in the afternoon. When is pollution worse? Late 
in the afternoon.
    Those kids who are the fittest of the fit who practice 
outside have three times the risk of developing asthma compared 
to children who are in varsity sports that don't practice 
outside.
    So we are harming, we are demonstrably harming our children 
by sending them outside to practice their athletics.
    Senator Carper. That was sobering. That was a sobering note 
to close this hearing on. I want to thank, again, we want to 
thank, on behalf of Senator Barrasso and myself, we want to 
thank each of you for coming today and for sharing your 
thoughts with us and responding to our questions.
    I think there is a moral imperative at work here. About 24 
hours from now, the Chaplain of the U.S. Senate will be holding 
forth in a Bible study group with a number of our colleagues. 
One of the things that, as Senator Barrasso know, one of the 
things that the Chaplain is always imploring us to do is use 
the Golden Rule. He calls it the Cliff Notes of the New 
Testament. And to treat other people the way we want to be 
treated.
    I think that is good guidance for almost everything that we 
do in our lives, especially good for those of us who are in the 
business of creating energy or electricity, and in some cases, 
creating emissions and pollution because of that. Just to keep 
in mind that we have, I think, a moral obligation to do our 
best in a cost-effective way to reduce those emissions and 
reduce that chance of harm. There is a way that we can do it, 
and I think EPA is trying to do that with respect to the 
mercury rule. And I think we have heard that here today and in 
other places. We need to do it in a cost effective way that 
does not impede our economic recovery. There is a way to do it, 
and a not very smart way.
    I hope that we continue to do it in a way that I think is 
well informed. Again, our thanks, Senator Barrasso and myself, 
our thanks to all of you. Colleagues have 2 weeks to submit 
their questions to you if they are not here. Please respond to 
those questions. Thank you so much.
    With that, this hearing is adjourned.
    [Whereupon, at 12:55 p.m., the committee was adjourned.]

             Statement of Hon. Jeff Sessions, U.S. Senator 
                       from the State of Alabama

    Administrator Jackson, thank you for coming before our 
committee today. Let me begin by saying that I am very 
concerned with the state of our economy. Look at the numbers:

    9.1; percent of the workforce currently unemployed.
    22,462,000; Number of workers currently unemployed and 
underemployed.
    We need to find ways to get this economy going forward 
again. Yet, it seems to me that EPA is systematically going 
about regulating the American economy in a manner that is not 
justified.
    Here are some more numbers:
    30; Number of major new rules that EPA is developing or has 
finalized.
    170; Number of major policy revisions that EPA is 
undertaking.
    11; Number of greenhouse gas regulations promulgated by EPA 
in 2010.

    I only have time to focus on one issue today.
    Administrator Jackson, you are familiar with your agency's 
plans to change the standards for ground level ozone. This is 
really among the most concerning proposals to come out of your 
agency.
    Listen to these numbers:
    125 parts per billion; EPA's ozone standard in the 1970s.
    85 ppb; the ozone standard in the 1990s.
    75 ppb; the ozone standard adopted by EPA in 2008, just 3 
years ago. EPA believed in 2008 that this standard was 
sufficient but not more stringent than necessary, to protect 
public health.
    60 ppb; the ozone standard that EPA has proposed.
    The congressional Research Service recently stated: "At [60 
parts per billion], 650 counties----virtually every county with 
a monitor----exceeding the proposed standard."\1\ That would be 
an increase from 85 countries today. Why is that significant? 
An ozone standard that results in "non-attainment" for that 
many areas will curtail economic growth around the country.
---------------------------------------------------------------------------
    \1\http://www.crs.gov/Products/R/PDF/R41062.pdf
---------------------------------------------------------------------------
    Let me give an example, In 2007, Thyssenkrupp Steel 
selected Calvert, Alabama as the home of their new state-of-
the-art carbon steel processing facilities. At the time, it was 
one of the largest economic development projects of the entire 
country. Since 2007, 'TK Steel ' has hired approximately 2,000 
workers; paid over $100 million in wages; created over 9,000 
construction jobs; and generated millions in state and local 
tax revenue. Why do I mention this project?
    That area of my state (without considering TK Steel) would 
very likely be considered non-attainment if EPA adopts the 60 
ppb standard. When asked about this possibility, and official 
with the state air regulation department was quoted in the 
Mobile Press-Register newspaper as saying: "It would be very 
difficult to locate another ThyssenKrupp plant in Mobile if 
[zone] non-attainment was determined. "This is not just Alabama 
problem. According to the Business Roundtable, the "proposed 
new ozone regulations... would cost nearly $90 billion dollars 
per year by 2020... "\2\ Another economic analysis by the MAPI 
Manufacturers Alliance similarly concluded that the economic 
impact of the tighter ozone standards would be in the range of 
$1 trillion from 2020-2030.\3\ Those are staggering figures.
---------------------------------------------------------------------------
    \2\http://businessroundtable.org/uploads/studies-reports/dowloads/
2011--04--National--Ambient--Air--Quality--Standard--for--Ozone.pdf
    \3\http://www.mapi.net/MediaCenter/news/Lists/Posts/
Post.aspx?ID=189
---------------------------------------------------------------------------
    I look forward to asking you a few questions about this 
issue.
    Thank you.

                                 [all]
</pre></body></html>
